<html>
<title> - CHALLENGES AND OPPORTUNITIES FOR COMMUTER RAILROADS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






          CHALLENGES AND OPPORTUNITIES FOR COMMUTER RAILROADS

=======================================================================

                                (116-32)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
41-444 PDF               WASHINGTON : 2020






























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      ELIJAH E. CUMMINGS, Maryland
DANIEL WEBSTER, Florida              RICK LARSEN, Washington
THOMAS MASSIE, Kentucky              GRACE F. NAPOLITANO, California
MARK MEADOWS, North Carolina         DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
                                     COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

 DANIEL LIPINSKI, Illinois, Chair
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               LIZZIE FLETCHER, Texas
BRIAN BABIN, Texas                   ELIJAH E. CUMMINGS, Maryland
MIKE BOST, Illinois                  ANDRE CARSON, Indiana
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             MARK DeSAULNIER, California
LLOYD SMUCKER, Pennsylvania          STEPHEN F. LYNCH, Massachusetts
PAUL MITCHELL, Michigan              TOM MALINOWSKI, New Jersey
BRIAN K. FITZPATRICK, Pennsylvania   GRACE F. NAPOLITANO, California
TROY BALDERSON, Ohio                 STEVE COHEN, Tennessee
ROSS SPANO, Florida                  JESUS G. ``CHUY'' GARCIA, Illinois
PETE STAUBER, Minnesota              ELEANOR HOLMES NORTON,
GREG PENCE, Indiana                    District of Columbia
SAM GRAVES, Missouri (Ex Officio)    EDDIE BERNICE JOHNSON, Texas
                                     ALAN S. LOWENTHAL, California
                                     COLIN Z. ALLRED, Texas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chairman, Subcommittee on Railroads, 
  Pipelines, and Hazardous Materials, opening statement..........     1
Hon. Pete Stauber, a Representative in Congress from the State of 
  Minnesota:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, opening statement..................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure, prepared statement.............................    51
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials, prepared 
  statement......................................................    51
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    52

                               WITNESSES

Paul P. Skoutelas, President and Chief Executive Officer, 
  American Public Transportation Association:

    Oral statement...............................................     5
    Prepared statement...........................................     7
James Derwinski, Chief Executive Officer/Executive Director, 
  Metra Commuter Railroad:

    Oral statement...............................................    18
    Prepared statement...........................................    19
Peter M. Rogoff, Chief Executive Officer, Sound Transit:

    Oral statement...............................................    23
    Prepared statement...........................................    25
Stephanie N. Wiggins, Chief Executive Officer, Southern 
  California Regional Rail Authority (SCRRA)-Metrolink:

    Oral statement...............................................    28
    Prepared statement...........................................    30

                       SUBMISSIONS FOR THE RECORD

Statement of Ray B. Chambers, President, Association of 
  Independent Passenger Rail Operators (AIPRO), Submitted for the 
  Record by Hon. Peter A. DeFazio................................    52
Letter of September 23, 2019, from Jerry Boles, President, 
  Brotherhood of Railroad Signalmen, et al., Submitted for the 
  Record by Hon. Peter A. DeFazio................................    55










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           September 20, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Railroads, Pipelines, 
and Hazardous Materials
    FROM:  LStaff, Subcommittee on Railroads, Pipelines, and 
Hazardous Materials
    RE:      LSubcommittee Hearing on ``Challenges and 
Opportunities for Commuter Railroads.''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials will meet on Tuesday, September 24, 2019, at 4:00 
p.m. in 2167 Rayburn House Office Building to hold a hearing 
titled, ``Challenges and Opportunities for Commuter 
Railroads.'' The hearing will explore the state of the commuter 
rail industry, challenges these commuter rail service providers 
face, and opportunities to address issues through legislation. 
The Subcommittee will hear testimony from American Public 
Transportation Association (APTA), Metra, Sound Transit, and 
Metrolink.

                               BACKGROUND

I. COMMUTER RAIL BASICS

    Rail transportation modes split into transit rail (heavy 
rail, light rail, and streetcar) and commuter rail. Typically, 
transit rail passengers use these services for shorter trips 
and on closed rail systems; commuter rail services carry 
passengers for longer trips on the Federal Railroad 
Administration-regulated general railroad system, connected to 
the broader interstate railroad network. As such, commuter rail 
is designed to provide a longer-distance, regional service that 
connects riders from suburban areas to city centers. Commuter 
rail typically operates with higher-speed, higher-capacity 
trains and less-frequent stops, and often operates on freight 
railroad right-of-way. Whereas heavy rail systems (often called 
``subways'' or ``metros'') typically do not interact with other 
rail traffic, given the closed nature of their systems. For 
example, in 2017, the average trip length on commuter rail 
measured 24.6 miles, compared to 4.6 miles and 5.2 miles on 
heavy and light rail, respectively.\1\
---------------------------------------------------------------------------
    \1\ American Public Transportation Association, 2019 Fact Book, 
page 14. Available at: https://www.apta.com/wp-content/uploads/
APTA_Fact-Book-2019_FINAL.pdf.
---------------------------------------------------------------------------
    While the most heavily traveled commuter rail systems are 
in the Northeast region of the United States, there are 29 
agencies operating commuter rail that service 21 states across 
the country, according to APTA's 2017 data.\2\ In recent years, 
commuter rail ridership has increased substantially. During 
2016-2017, 510 million trips were taken on commuter rail--an 
increase of 23 percent from 2000 levels.\3\ In 2017 alone, 
riders traveled more than 12.3 billion passenger miles by 
commuter rail. As ridership grows, the footprint of commuter 
rail has also increased, with a 13 percent growth in 
directional route mileage from 2007 to 2017.\4\ In 2017, 
commuter rail also directly employed nearly 64,000 workers who 
are responsible for operations, maintenance, capital, and 
general administration, and help make this transportation mode 
possible.\5\
---------------------------------------------------------------------------
    \2\ Id. at 39. Note that, while APTA considers the Alaska Railroad 
to be a commuter railroad in this count, the FRA generally does not 
consider the Alaska Railroad to be a commuter railroad.
    \3\ Id. at 14.
    \4\ Id. at 20.
    \5\ Id. at 6-7.
---------------------------------------------------------------------------

II. FEDERAL OVERSIGHT AND FUNDING OF COMMUTER RAIL  

FRA SAFETY OVERSIGHT; FTA FORMULA FUNDS

    Ensuring the safety of commuter rail is the responsibility 
of the Federal Railroad Administration (FRA), which establishes 
minimum acceptable levels of railroad safety equipment and 
operating practices. While FRA regulates safety, federal 
funding for commuter rail transportation is provided by the 
Federal Transit Administration (FTA). Commuter rail agencies 
are eligible to receive FTA formula funds, including funding 
under 49 U.S.C. Sections 5307 (Urbanized Area Formula Grants); 
5337 (State of Good Repair Grants); and 5340 (High Density 
States Formula funds). These formula funds typically go to a 
regional transportation agency (designated recipient) and are 
allocated by regional agreements to various transit agencies 
operating commuter rail, heavy and light rail, streetcars, 
ferries, and bus transit in the same urban area. The most 
recent surface transportation reauthorization bill, the Fixing 
America's Surface Transportation Act (FAST), authorized 
approximately $38 billion for these programs from fiscal year 
2016 through fiscal year 2020. Additionally, commuter railroads 
may compete for discretionary grants under FTA's Capital 
Investment Grant (CIG) program, which funds capital investments 
in commuter rail as well as heavy and light rail, street cars, 
and bus rapid transit projects. The FAST Act authorized $11.5 
billion for the CIG program over five years.  

DISCRETIONARY GRANTS

    In recent years, commuter rail has also been eligible for 
certain federal discretionary grant programs to support 
positive train control (PTC) systems implementation. For 
example, in fiscal year 2018, Congress made $250 million 
available for PTC installation under the FRA's Consolidated 
Rail Infrastructure and Safety Improvements (CRISI) program. Of 
these funds, commuter railroads received $187 million, 
according to FRA.\6\ In the FAST Act, Congress also authorized 
$199 million in fiscal year 2017 FTA funds to assist financing 
the installation of PTC.
---------------------------------------------------------------------------
    \6\ In determining this figure, the FRA does not consider the 
Alaska Railroad to be a commuter railroad. Alaska Railroad received 
$12.9 million under the program.  
---------------------------------------------------------------------------

RAILROAD REHABILITATION AND IMPROVEMENT FINANCING PROGRAM

    The Railroad Rehabilitation and Improvement Financing 
(RRIF) program was originally established by Congress in Title 
V of the Railroad Revitalization and Regulatory Reform Act of 
1976 and later amended in the Transportation Equity Act for the 
21st Century (``TEA-21''). RRIF offers long-term, low-interest 
loans for improving rail infrastructure. Eligible recipients 
include railroads, state and local governments, government-
sponsored corporations, and joint ventures that include at 
least one railroad. RRIF-eligible projects include the 
following: acquiring, improving, and rehabilitating track, 
bridges, rail yards, buildings, and shops; preconstruction 
activities; PTC; transit-oriented development projects; and new 
rail or intermodal activities. Under this program the 
Department of Transportation is authorized to provide direct 
loans and loan guarantees up to $35 billion to finance 
development of railroad infrastructure. To date the RRIF 
program has provided $6.286 billion in financing since 2002. 
There is currently about $30.2 billion available in loan 
authority under the RRIF program.
    RRIF loans can cover up to 100 percent of a project's cost, 
with repayment periods of up to 35 years. Applicants are 
charged 0.5 percent of the amount requested to cover the cost 
of processing their applications. Borrowers also pay another 
fee--the credit risk premium (CRP)--at the time the loan is 
issued to cover the potential cost to the government should the 
loan default. The CRP is calculated for each loan, based 
primarily on the financial soundness of the borrower and the 
amount of collateral the borrower pledges. While 22 RRIF loans 
have been fully repaid, DOT has not returned any CRP to those 
borrowers. As required by the Continuing Appropriations Act of 
2019 and the Save Our Seas Act of 2018, DOT, in consultation 
with the Office of Management and Budget, has defined the term 
``cohorts of loans'' as applicable to RRIF loans executed prior 
to the enactment of the FAST Act. Under that law, when all 
obligations attached to a cohort of loans has been satisfied, 
the Secretary shall return to the original source the CRP paid 
for the loans in the cohort. One loan, issued in 2005 to the 
Montreal, Maine, & Atlantic Railway Ltd., defaulted.

III. OPERATIONS  

OPERATING COMMUTER RAIL

    While commuter rail is characterized as providing regional 
passenger rail service, how the service is provided varies. For 
instance, some commuter rail agencies operate their own service 
over track the agency owns, and others contract with freight 
railroads for access to their track and dispatching services. 
Several commuter agencies also partner with Amtrak for various 
services. Others contract out their operations and/or other 
services to private sector providers of those services. All 
shared use of rail corridors is based on voluntary agreements 
negotiated on a case-by-case basis to address corridor- and 
service-specific issues. While Amtrak has statutory right of 
access to freight railroad infrastructure, this right does not 
extend to commuter railroads.
    Amtrak operates three commuter train services for state and 
regional authorities, including Maryland Area Regional Commuter 
(MARC) Penn Line; Southern California Regional Rail Authority 
(Metrolink); and Shore Line East (Connecticut). Amtrak also 
provides maintenance-of-equipment services for Central Florida 
Commuter Rail Commission (SunRail); CTrail (Connecticut); MARC; 
Shore Line East; and Sound Transit (Washington), as well as 
maintenance-of-way and dispatching services for Massachusetts 
Bay Transportation Authority (MBTA). Amtrak also provides 
access to its tracks (and in some cases, other services) for 10 
agencies, including: CTrail; Long Island Rail Road; MARC Penn 
Line; NJ TRANSIT; Southeastern Pennsylvania Transportation 
Authority (SEPTA); Delaware DOT; Rhode Island DOT; Shore Line 
East; Virginia Railway Express (VRE); and Metra (Chicago area).
    Various private sector companies operate commuter train 
services for state and regional authorities, including 
Peninsula Corridor Joint Powers Board (Caltrain); San Joaquin 
Regional Rail Commission (Altamont Corridor Express); South 
Florida Regional Transportation Authority (Tri-Rail); Trinity 
Railway Express; Trinity Metro (TEXRail); Capital Metropolitan 
Transportation Authority (MetroRail); Denton County Transit 
Authority (Texas); Rio Metro RTD (New Mexico Rail Runner 
Express); Massachusetts Bay Transportation Authority; Virginia 
Railway Express (VRE); and Connecticut DOT (CTrail Hartford 
Line). Additional rail services provided by the private sector 
include maintenance, engineering, PTC hosting, and railcar 
repair services.  

POSITIVE TRAIN CONTROL

    Positive Train Control (PTC) are technologies designed to 
automatically stop or slow a train to prevent train-to-train 
collisions, over-speed derailments, incursions into established 
work zones, and the movement of a train through a switch left 
in the wrong position. Congress enacted the Rail Safety 
Improvement Act of 2008 (RSIA, P.L. 110-432) in October 2008, 
requiring each Class I railroad and each entity providing 
intercity or commuter rail passenger transportation to 
implement a PTC system governing certain operations by December 
31, 2015.\7\ That deadline was extended to December 31, 2018, 
and the Secretary of Transportation was authorized to provide 
each railroad, on a case-by-case basis, with an additional 
extension of up to 24 months as long as the railroad met the 
requirements specified in statute.\8\
---------------------------------------------------------------------------
    \7\ Railroads were required to install PTC systems on: (1) main 
lines over which intercity rail passenger transportation or commuter 
rail passenger transportation is regularly scheduled; (2) main lines 
over which poison- or toxic-by-inhalation hazardous materials are 
transported; and (3) such other tracks as the Secretary of 
Transportation may prescribe by regulation or order.
    \8\ These requirements include having: installed all PTC system 
hardware; acquired all spectrum; in the case of a Class I railroad 
carrier or Amtrak, implemented PTC or initiated revenue service 
demonstration on 50 percent of its territories; in the case of a 
commuter railroad, initiated revenue service demonstration on at least 
one territory; and completed employee training required under the 
applicable regulations. See Surface Transportation Extension Act of 
2015 (P.L. 114-73).
---------------------------------------------------------------------------
    According to the FRA's 2019 second quarter reporting, of 
the 28 commuter railroads required to install PTC, six have 
fully implemented their systems, with the remaining 22 
expecting to complete implementation in 2020.\9\ In sum, 89.7 
percent of commuter railroads' locomotives are equipped and 
operable with PTC; 91.3 percent of the required track segments 
have PTC installed; and 91.5 percent of the required employee 
training is complete. FRA also reports that 36.7 percent, or 
1,141 of the 3,111, commuter route miles required to have PTC 
are complete.
---------------------------------------------------------------------------
    \9\ These six commuter railroads include: Northstar Commuter 
Railroad; Port Authority Trans-Hudson (PATH); Metrolink; Sounder 
Commuter Rail; North Country Transit District; and Virginia Railway 
Express (VRE).
---------------------------------------------------------------------------
    The statutory mandate requires that PTC systems be 
interoperable between railroad hosts and tenants, meaning that 
the railroads' PTC systems must be able to communicate and 
respond to each other, thereby allowing uninterrupted movements 
over property boundaries. Configuring the interoperability of 
PTC systems between host and tenant railroads remains a 
challenge, with only 22 percent interoperability in host-tenant 
relationships achieved as of June 30, 2019.\10\ Additional PTC 
implementation challenges that commuter railroads have 
highlighted include diagnosing and resolving ongoing software 
issues and securing adequate time and access to track and 
locomotives for installation and testing. APTA estimates that 
commuter railroads will spend $4.1 billion implementing PTC 
technology and approximately $160 million annually in 
operations and maintenance of these systems, though as 
indicated above, some federal grant funding exists to alleviate 
implementation costs.
---------------------------------------------------------------------------
    \10\ The FRA describes an interoperability relationship as a 
relationship between one host railroad and one tenant. A railroad can 
be a host in one relationship and be a tenant in a different 
relationship. Of the 232 relationships subject to the December 31, 2020 
operational deadline, only 50 host-tenant relationships have achieved 
PTC system interoperability.
---------------------------------------------------------------------------

IV. LIABILITY

    Commuter agencies are tasked with planning for and insuring 
against potential liabilities. Most commuter rail agencies 
self-insure against risks in the range of $1 million to $10 
million in losses, according to a survey of APTA members.\11\ 
These costs are only paid in the event of an incursion of 
liability, are typically kept as a reserve, and can be thought 
of as a deductible. In order to insure against larger losses, 
commuter rail agencies purchase policies from the private 
markets. The same APTA survey found that premiums for these 
policies, which must be paid annually regardless of whether the 
policies are used, range from $1 million to $8 million.
---------------------------------------------------------------------------
    \11\ Available at: https://www.apta.com/wp-content/uploads/
Resources/resources/reportsand
publications/Documents/APTA-Commuter-Rail-Liability-2015.pdf.
---------------------------------------------------------------------------
    In 1997, Congress enacted the Amtrak Reform and 
Accountability Act, which limited overall damages from all 
passenger claims arising from a single accident to $200 
million, including punitive damages.\12\ Congress amended this 
provision in the FAST Act by requiring the Secretary of 
Transportation to adjust the limitation ceiling based upon the 
change in Consumer Price Index, with revisions required every 
five years.\13\ The Secretary adjusted the rail passenger 
liability cap to approximately $295 million in February of 
2016.\14\
---------------------------------------------------------------------------
    \12\ P. L. 105-134. See Section 28103.
    \13\ P. L. No. 114-97. See Section 11415.
    \14\ 81 FR 1289.
---------------------------------------------------------------------------
    Commuter rail agencies are not required to obtain an 
insurance policy that covers a loss up to that ceiling; 
however, they often are required to maintain a minimum level of 
liability insurance as a result of contractual obligations with 
freight railroads to operate on their track. Host freight 
railroads may require commuter rail agencies to indemnify and 
defend the freight railroad for any and all incidents that 
would not have occurred but for the presence of the passenger 
service, regardless of fault. State laws may also influence 
commuter rail agencies' contractual abilities.

                              WITNESS LIST

    <bullet> LMr. Paul P. Skoutelas, President and CEO, 
American Public Transportation Association
    <bullet> LMr. Jim Derwinski, CEO/Executive Director, Metra
    <bullet> LMr. Peter Rogoff, CEO, Sound Transit
    <bullet> LMs. Stephanie Wiggins, CEO, Metrolink

 
          CHALLENGES AND OPPORTUNITIES FOR COMMUTER RAILROADS

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2019

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:01 p.m. in 
room 2167, Rayburn House Office Building, Hon. Daniel Lipinski 
(Chairman of the subcommittee) presiding.
    Mr. Lipinski. The subcommittee will come to order.
    I ask unanimous consent that the chair be authorized to 
declare a recess during today's hearing.
    With no objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    And without objection, so ordered.
    Good afternoon. I will start by recognizing myself for 5 
minutes. I want to welcome everyone to today's hearing with the 
Railroads, Pipelines, and Hazardous Materials Subcommittee to 
learn more about the challenges facing commuter railroads.
    And before I begin, let me just thank everyone, all the 
witnesses, for being flexible with the cancellation of votes 
yesterday. We moved this hearing back, so thank you for your 
flexibility here. There is a lot going on right now on Capitol 
Hill, as we all know. But I think one thing people really are 
concerned about all the time is their local transportation. So 
we are here to learn more about the challenges facing commuter 
railroads.
    Since this committee has not held a hearing solely on 
commuter rail in a decade, I thought it was important to 
convene this hearing. After all, these railroads play a vital 
role in the daily lives of tens of millions of Americans. In 
2017, 29 commuter railroads provided an estimated 510 million 
passenger trips.
    It is critical to remember that almost every person on 
commuter rail means one less car on our congested roads. And we 
certainly have a lot of congestion in the Chicago area.
    In addition to reducing traffic, reliable commuter rail 
also contributes to the cleaner environment and lower 
greenhouse gas emissions.
    Metra Rail is Chicagoland's commuter rail agency, and I am 
an occasional rider of Metra's busiest line, the BNSF. So I 
know personally both its benefits and frustrations. When Metra 
passengers get safe, reliable service, it is one of the best 
systems in the country. But, like many legacy commuter 
railroads, Metra faces tight budgets year after year, and has 
limited resources to address ongoing problems with old 
equipment and infrastructure that have created more and more 
headaches for riders.
    Today I look forward to hearing from our witnesses about 
what we can do to minimize these headaches, and give Americans 
reliable commuter rail service. The timing of this hearing is 
critical because, as we begin to draft next year's 
reauthorization of surface transportation programs, we will 
have an opportunity to address commuter rail funding concerns 
that we will hear about today.
    In the FAST Act, passenger rail was explicitly part of this 
reauthorization bill for the first time. It is a top priority 
of mine to do that again. I have heard from numerous 
stakeholders about the success of the Consolidated Rail 
Infrastructure and Safety Improvements Program, known as CRISI, 
which was established in the FAST Act. And there is the desire 
to replicate such a program to provide dedicated Federal 
funding for commuter railroads. I look forward to hearing from 
our witnesses about the potential benefits of creating such a 
program.
    Another key funding issue for commuter railroads involves 
Positive Train Control. I want to be clear that I and this 
committee fully expect all railroads to meet the 2020 deadline. 
As commuter rail agencies turn their attention to ensuring that 
PTC is maintained and functions as intended, I know that they 
are facing additional expenses. As a result, money has been 
taken from projected capital programs to cover these costs, and 
important projects to address the state-of-good-repair backlog 
have been delayed or canceled.
    As surface reauthorization moves forward, this area will be 
one the subcommittee will focus on. I hope to hear from 
Metrolink, who has been a leader in PTC implementation, and 
others on this panel about their PTC challenges.
    It is also imperative that commuter railroads have strong 
partnerships with freight railroads and Amtrak in order to 
provide reliable service. Unfortunately, in Chicago and other 
regions of the country, these partnerships are not always 
working as well as they should.
    Amtrak, in particular, has fallen short. At Chicago Union 
Station, which Amtrak owns, infrastructure failures have 
repeatedly caused serious delays and cancellations for Metra. 
Amtrak is also demanding that commuter railroads pay 
significantly more to use hubs like Chicago Union Station, 30th 
Street Station in Philadelphia, and Union Station, here in DC. 
I have heard numerous questions raised about these increases, 
and I would like to hear more about this today.
    The relationship between commuter and freight railroads is 
better, but not without its own issues. As the demand for 
commuter rail grows, there is a need to expand service. But as 
a Member and any other Members who have been involved in 
discussions between commuter and freight railroads over service 
expansion, I can tell you it is an arduous process that can 
take many years to add even a single additional train on some 
lines.
    While I am understanding of the need to ensure freight 
operations aren't significantly impacted by additional commuter 
trains, the current process to work out service expansion can 
and should be better.
    Finally, I look forward to discussion about innovation and 
how Congress and U.S. DOT can help advance research and 
deployment by commuter railroads of the latest technologies 
within the industry, like new technologies that help reduce 
rail grade crossing fatalities and trespassing death. The 
Federal Railroad Administration has a research and development 
program that receives around $35 million annually, and I am 
interested in ideas from our witnesses on whether the program 
is functioning well, and how we can improve on it in the 
upcoming surface reauthorization.
    This is the first hearing of this subcommittee as we begin 
to look at reauthorization of the FAST Act. I look forward to 
using this hearing and others this fall to look at important 
rail topics, and working with my colleagues on practical 
solutions to the challenges ahead.
    And with that, I will now recognize Mr. Stauber, who is 
sitting in for Mr. Crawford, as the ranking member, who is back 
home because he had some knee issues, messed up his knee pretty 
badly last week. So fortunately, from what I have heard, it is 
not as bad as he originally feared, and he will be back soon, I 
believe.
    But I will begin here by recognizing Mr. Stauber for 5 
minutes.
    Mr. Stauber. Thank you, Chair Lipinski, for holding this 
hearing. And I want to thank our witnesses for attending.
    Today we are going to learn about some of the challenges 
and opportunities faced by our Nation's commuter railroads. 
Commuter rail systems throughout the country provide critical 
access to our job centers, and help relieve congestion on our 
roads. At the Federal level, the Federal Transit Administration 
funds commuter rail transportation through formula funds and 
competitive grants. And the Federal Railroad Administration 
makes available discretionary grants, direct loans, and loan 
guarantees. State and local funding also is available.
    As this committee prepares to reauthorize surface 
transportation programs, it is critically important for 
commuter rail agencies to continue to look for ways to improve 
service while reducing costs. Several commuter rail agencies 
have implemented competitive contracting for commuter rail 
operations and other services as a way to provide the highest 
level of service at the lowest cost. Doing so ultimately drives 
increase in ridership and more mileage out of the taxpayer 
dollar.
    Thank you again to all our witnesses, and I look forward to 
our discussion.
    [Mr. Stauber's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Pete Stauber, a Representative in Congress 
                      from the State of Minnesota
    I want to thank Chairman Lipinski for holding this hearing, and I 
want to thank our witnesses for attending.
    Today, we are going to learn about some of the challenges and 
opportunities faced by our nation's commuter railroads.
    Commuter rail systems throughout the country provide critical 
access to our jobs centers and help relieve congestion on our roads.
    At the federal level, the Federal Transit Administration funds 
commuter rail transportation through formula funds and competitive 
grants, and the Federal Railroad Administration makes available 
discretionary grants, direct loans, and loan guarantees. State and 
local funding also is available.
    As this Committee prepares to reauthorize surface transportation 
programs, it is critically important for commuter rail agencies to 
continue to look for ways to improve service while reducing costs.
    Several commuter rail agencies have implemented competitive 
contracting for commuter rail operations and other services as a way to 
provide the highest level of service at the lowest costs.
    Doing so ultimately drives increases in ridership and more mileage 
out of the taxpayer dollar.
    Thank you again to our witnesses, and I look forward to our 
discussion.
    Mr. Stauber. Back to you, Mr. Chair.
    Mr. Lipinski. And I would now like to welcome our panel of 
witnesses: Mr. Paul P. Skoutelas, president and CEO of the 
American Public Transportation Association; Mr. Jim Derwinski, 
CEO and executive director of Metra; Mr. Peter Rogoff, CEO of 
Sound Transit; and Ms. Stephanie Wiggins, CEO of Metrolink. 
Thank you for being here today. I look forward to your 
testimony.
    Before we begin--and I am going to give an additional 
opportunity to introduce a couple of the witnesses--I would 
also like to welcome a couple of other transportation leaders 
who are here, constituents of mine, in the audience.
    Steve Palmer, who is here today with Mr. Derwinski, and he 
is a Metra board member, and also Rick Kwasneski, who is 
chairman of the board of Pace, who is also a constituent of 
mine. So good to have the two of you here today.
    Mr. Derwinski was selected as the next CEO/executive 
director of Metra Commuter Rail Agency by the Metra board of 
directors in August of 2017. In his role as Metra CEO and 
executive director, Jim has focused on making Metra more 
customer-friendly and service-oriented.
    Jim has a long career in Metra's mechanical department, 
most recently serving as its chief mechanical officer. In that 
role he oversaw 650 employees responsible for the repair, 
inspection, cleaning, and maintenance of nearly 1,200 railcars 
and locomotives. He was also in charge of Metra's in-house 
railcar locomotive rehabilitation programs, a contract for 
local remanufacturing, and the installation of Positive Train 
Control on cab cars and engines.
    After a 6-year stint in the U.S. Navy as an electrician on 
nuclear submarines, Jim began his railroad career as a 
locomotive electrician with the Chicago and North Western 
Railroad in 1993. He joined Metra as an electrician in 1997, 
and steadily rose through the ranks, serving as a foreman, 
general foreman, shop superintendent, director of systems 
maintenance, locomotive superintendent, Rock Island division 
director, and Milwaukee division director, and then senior 
director of mechanical operations. He was named chief 
mechanical officer in September 2013. So Jim has a long, long 
history in railroads.
    Jim is a member of the American Public Transportation 
Association board of directors, along with serving on several 
other APTA committees. He is also on the Safety Operations and 
Management Committee of the Association of American Railroads, 
and the Transportation Technology Center board of directors.
    And I will now recognize Mr. Larsen to introduce Mr. Peter 
Rogoff.
    Mr. Larsen. Thank you, Chair Lipinski, for inviting me to 
be here today, and for calling this hearing on the importance 
of commuter rail in our Nation's transportation system.
    I always say you can't have a big league economy with 
little league infrastructure, and robust Federal transportation 
investment is critical to improving the access to reliable 
commuting options and ensuring the safety of these systems, 
which is why I am very pleased to introduce one of today's 
witnesses, Peter Rogoff, the CEO of Sound Transit.
    I have worked with Peter for many years to expand efficient 
commuter transit options for the Puget Sound region. His 
leadership and public service as a Federal Transit 
Administrator and Under Secretary of Transportation for Policy 
in the Obama administration were instrumental to improving 
transit service across the country. And he has, of course, 
since joined Sound Transit.
    Earlier this month I joined Peter, local elected officials, 
and community members at the groundbreaking of the Lynnwood 
Link extension station in my district, the Washington State 
Second Congressional District. The Lynnwood Link extension is a 
critical part of Sound Transit's efforts to build rail transit 
all the way from Tacoma through Seattle to Everett, my 
hometown. This project will help with traffic congestion and 
provide a reliable commuting option for up to 55,000 more daily 
riders throughout northwest Washington.
    And last year the FTA signed a $1.2 billion full funding 
grant agreement to get this project across the finish line. The 
expansion of safe, accessible, and efficient commuter transit 
nationwide must remain a priority. Peter's team at Sound 
Transit is part of that.
    I want to thank Peter for testifying here today. And with 
that, thank you for allowing me to participate, and I yield 
back.
    Mr. Lipinski. Thank you, Representative Larsen. Without 
objection, our witnesses' full statements will be included in 
the record. And since your written testimony has been made part 
of the record, the subcommittee requests that you limit your 
oral testimony to 5 minutes.
    And with that, I will recognize Mr. Skoutelas.

 TESTIMONY OF PAUL P. SKOUTELAS, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, AMERICAN PUBLIC TRANSPORTATION ASSOCIATION; JAMES 
 DERWINSKI, CHIEF EXECUTIVE OFFICER/EXECUTIVE DIRECTOR, METRA 
 COMMUTER RAILROAD; PETER M. ROGOFF, CHIEF EXECUTIVE OFFICER, 
   SOUND TRANSIT; AND STEPHANIE N. WIGGINS, CHIEF EXECUTIVE 
 OFFICER, SOUTHERN CALIFORNIA REGIONAL RAIL AUTHORITY (SCRRA)-
                           METROLINK

    Mr. Skoutelas. Thank you, Chairman Lipinski, Ranking Member 
Crawford, Chairman DeFazio, Ranking Member Graves, 
Representative Babin, and members of the subcommittee, we thank 
you for the opportunity to testify today on commuter rail 
challenges and opportunities. I am Paul Skoutelas, president 
and CEO of the American Public Transportation Association, also 
known as APTA.
    We represent 1,500 public and private sector organizations 
throughout North America, and we are the voice of public 
transportation modes for all of the modes of public transit, 
including commuter rail.
    Commuter rail today is a $10 billion industry which creates 
and supports over 200,000 jobs. The overwhelming majority of 
commuter rail funding, some 63 percent, flows through the 
public funding avenues to the private sector. Today 32 agencies 
operating commuter rail safely carry more than 500 million 
passengers each year. Over the past decade commuter rail 
ridership has grown by over 9 percent.
    For commuter rail operators and the entire public 
transportation industry, safety is a core value, a 
nonnegotiable operating principle, and a promise to our riders. 
As a result, public transportation today is the safest form of 
surface transportation.
    In fact, traveling by commuter and intercity passenger rail 
is 18 times safer than traveling by car. Over the last few 
years commuter railroads have been working to make commuter 
rail even safer by installing and implementing Positive Train 
Control. And they are making great progress. One-fifth of all 
commuter rail agencies have fully implemented PTC, including 
Metrolink and Sound Transit. And, of course, Metra is well on 
its way, as well, to fully meeting the deadline by 2020.
    To date, the cost of full implementation of PTC is 
estimated to be approximately $4.1 billion for the commuter 
railroad agencies. And while we greatly appreciate Congress' 
support for commuter railroads by providing some Federal 
funding for PTC implementation under the FAST Act and the CRISI 
grants, nearly 90 percent of PTC costs are being borne by State 
and local governments and agencies.
    Moreover, these very significant investments do not include 
the ongoing operating and maintenance costs associated with PTC 
implementation, which are currently estimated to be $160 
million per year. APTA urges the committee to expand commuter 
rail eligibility under CRISI, and to provide a total of $1 
billion over 6 years--that is $160 million per year--
specifically to provide grants to publicly funded commuter 
railroads to operate and maintain PTC.
    Although great progress has been made on PTC, many commuter 
rail agencies have had to defer other important infrastructure 
safety projects to focus on this mandate. For instance, 
highway-rail grade crossing safety and trespassing remain 
significant issues. Over the last 5 years, 96 percent of 
railroad fatalities were attributable to trespassers or 
highway-rail grade crossing users. We urge the committee to 
authorize a total of $1.5 billion over 6 years--$225 million 
per year--from CRISI grant funds to commuter and other 
passenger railroads for highway-rail grade crossing safety 
initiatives. These funds would be in addition to the Federal 
highway-rail grade crossing set-aside, known as the section 130 
program.
    Federal investment in public transportation, including 
commuter rail, is an investment in American jobs and economic 
competitiveness. The Federal, State, and local partnership 
remains essential to ensuring that critical infrastructure 
investments are made. Commuter rail receives funding from three 
separate Federal sources: urbanized formula area grants, state-
of-good-repair grants, and the Capital Investment Grants known 
as CIG.
    The economic benefits of investing in commuter rail are 
wide ranging. In addition to the critical local economic 
benefits of these projects, there are vehicles, parts, supplies 
that are made all over America and across the Nation that 
really do contribute to the economy.
    In the next surface transportation bill APTA strongly urges 
the committee to continue that Federal partnership by investing 
$145 billion over 6 years in public transportation to fund 
critical projects that will repair, maintain, and improve our 
public transit systems, including commuter rail, both today and 
well into the future. Our proposal would address the entire 
state-of-good-repair backlog, and would fund all the CIG 
projects in the pipeline for the next 6-year period.
    Finally, given the critical need for investment in public 
transportation, we are deeply concerned about proposed cuts to 
public transportation funding in the Senate's fiscal year 2020 
transportation appropriations, or the THUD bill. The bill cuts 
CIG funding by $575 million, and state-of-good-repair grants by 
another $178 million. These cuts would directly impact 
investment in new commuter rail projects, and limit the ability 
of public transit systems, including commuter rail, to address 
state-of-good-repair needs.
    We strongly urge the committee to work with us to restore 
these critical investments for public transportation in 
conference with the Senate. And this year is critically 
important. The final fiscal year 2020 THUD funding levels will 
reset the budget baseline as you begin developing the next 
surface transportation authorization act.
    Thank you again for giving me the opportunity to testify 
and share our thoughts on commuter rail. We certainly look 
forward to working with the committee as it writes the surface 
transportation authorization act. I look forward to any 
questions you may have.
    [Mr. Skoutelas' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Paul P. Skoutelas, President and Chief Executive 
          Officer, American Public Transportation Association
                              Introduction
    Chairman Lipinski, Ranking Member Crawford, and Members of the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials, on 
behalf of the American Public Transportation Association (APTA) and its 
1,500 public- and private-sector member organizations, thank you for 
the opportunity to testify on ``Challenges and Opportunities for 
Commuter Railroads''.
    My name is Paul Skoutelas, and I am the President and Chief 
Executive Officer (CEO) of APTA, an international association 
representing a $71 billion industry that employs 430,000 people and 
supports millions of private-sector jobs. We are the only association 
in North America that represents all modes of public transportation--
bus, paratransit, light rail, commuter rail, subways, waterborne 
services, and high-performance intercity passenger rail.\1\
---------------------------------------------------------------------------
    \1\ APTA members include public transportation systems; planning, 
design, construction, and finance firms; product and service providers; 
academic institutions; state transit associations; and state 
departments of transportation.
---------------------------------------------------------------------------
    Public transportation not only spurs economic growth, but reduces 
congestion, improves air quality, saves time and money, and advances an 
equitable and better quality of life for our communities.
                             Commuter Rail
    Nearly 40 years ago, Congress enacted the Northeast Rail Services 
Act of 1981 (P.L. 97-35) to salvage commuter rail operations from 
Conrail and created six commuter rail authorities.\2\ The state of 
commuter rail at that time suffered from low and declining ridership 
and equipment long beyond its useful life. These agencies and the many 
others across the nation that existed then or have started anew have 
transformed commuter rail into an essential, reliable, growing, safe, 
and affordable mobility option carrying hundreds of millions of 
travelers each year.
---------------------------------------------------------------------------
    \2\ The six commuter rail authorities are the: Metropolitan 
Transportation Authority; Connecticut Department of Transportation; 
Maryland Department of Transportation; Southeastern Pennsylvania 
Transportation Authority; New Jersey Transit Corporation; and 
Massachusetts Bay Transportation Authority.
---------------------------------------------------------------------------
    Today, commuter rail is a $9.9 billion industry, creating and 
supporting over 200,000 public- and private-sector jobs. Moreover, the 
overwhelming majority (63 percent) of this funding flows through the 
private sector.
32 Commuter Rail Agencies
    Today, there are 32 agencies operating commuter railroads,\3\ 
safely carrying passengers on more than 500 million trips each year. 
Commuter rail services are higher-speed, higher capacity trains with 
less frequent stops. They are traditionally used to connect people from 
suburban areas to city centers. In the last decade, nine new commuter 
rail systems \4\ have begun operation, with the latest--TexRail in Fort 
Worth, Texas--starting up earlier this year.
---------------------------------------------------------------------------
    \3\ A list of commuter railroad agencies can be found in Appendix 
A. APTA's list includes all commuter and hybrid rail agencies that 
receive funding from the Federal Transit Administration (FTA) and 
report data to the National Transit Database.
    \4\ The nine new systems are Portland, OR (Westside Express, 2009); 
Minneapolis, MN (Northstar, 2009); Austin, TX (Capital MetroRail, 
2010); Denton, TX (A Train, 2011); Orlando, FL (SunRail, 2014); Denver, 
CO (A Line, 2016); Marin County, CA (SMART, 2017); Antioch, CA (eBART, 
2018); and Fort Worth, TX (TEXRail, 2019).
---------------------------------------------------------------------------
              Commuter Rail Agencies in the United States


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Increased Ridership and Fare Recovery
    Commuter rail has enjoyed nearly constant annual ridership growth--
growing by more than 42 million passenger trips (9.2 percent) over the 
last decade. Commuter rail has also increased fare recovery (fare 
revenue as a percent of operating costs) in the last decade. On 
average, fares recover more than one-half (52 percent) of the operating 
costs of commuter railroads.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Safety is a Core Value
    For commuter rail operators and the entire public transportation 
industry, safety is a core value--a non-negotiable operating principle 
and promise to our riders. The men and women responsible for managing 
and operating public transportation systems are fully committed to the 
safety of their systems, passengers, employees, and the general public.
    As a result of this overriding and sustained commitment to safety, 
public transportation is the safest form of surface transportation. 
Every year, 32 commuter railroads across America safely carry 
passengers on more than 500 million trips. And, traveling by commuter 
and intercity passenger rail is 18 times safer than traveling by car.
                         positive train control
Implementation Status
    APTA commuter rail members are working to make commuter rail even 
safer by installing and implementing Positive Train Control (PTC), a 
complex signaling and communications technology that provides a 
critical safety overlay on top of already safe commuter rail systems. 
All of our commuter railroads met the five statutory milestones 
required to be implemented by December 31, 2018, including acquiring 
spectrum, installing wayside equipment, installing on-board equipment, 
back office control set up and workforce training.
    Commuter railroads are now focused on PTC implementation and are 
making great progress. One-fifth of all commuter rail agencies have 
fully implemented PTC, including Southern California Regional Rail 
Authority/Metrolink (Los Angeles, CA) and Sound Transit (Seattle, WA), 
who are testifying before the Subcommittee today.\5\ Four additional 
commuter rail agencies have implemented PTC on their railroads but are 
awaiting final actions from other railroads operating in the territory. 
The remaining commuter railroads are in revenue service demonstration 
or field testing and aggressively working to complete PTC 
implementation by the December 2020 deadline.\6\
---------------------------------------------------------------------------
    \5\ The six commuter rail agencies that have fully implemented PTC 
are Southern California Regional Rail Authority (SCRRA) (Metrolink); 
North San Diego County Transit District (NCTD) (Coaster); Metro Transit 
Northstar Commuter Rail (Northstar); Tri-County Metropolitan Transit 
District of Oregon (TriMet) (Westside Express); Virginia Railway 
Express (VRE); and Central Puget Sound Regional Transit Authority 
(Sounder).
    \6\ TexRail began operation in 2019 and is committed to installing 
and implementing PTC by the December 2020 deadline; New Mexico received 
a temporary exemption to the PTC requirement from the Federal Railroad 
Administration but is committed to installing and implementing PTC by 
the December 2020 deadline.
---------------------------------------------------------------------------
PTC Costs
    PTC will cost commuter rail operators approximately $4.1 billion to 
implement, and almost 90 percent of these costs are being borne by 
state and local governments and agencies. In addition, PTC will cost an 
estimated $160 million each year to operate and maintain. For publicly-
funded agencies that rely on federal, state, and local funding, as well 
as passenger fares to operate their service, these costs are 
staggering.
    Moreover, these costs are in addition to the existing $90 billion 
backlog needed to bring the current public transportation system, 
including commuter railroads, into a state of good repair, as estimated 
by the U.S. Department of Transportation. A recent survey of commuter 
railroad agencies found that many commuter railroads have state-of-
good-repair needs that far outweigh their capital budgets, even before 
including the additional costs associated with implementing PTC. As a 
result, to fund PTC, commuter railroads have had to divert funds from 
other critical infrastructure and safety projects, such as replacing 
bridges (some of which that are more than 100 years old), 
rehabilitating outdated locomotives, and upgrading tracks and other 
safety systems.
    Although we greatly appreciate Congress' support for commuter 
railroads by allowing these railroads to be eligible for Consolidated 
Rail Infrastructure and Safety Improvements (CRISI) grants for PTC 
implementation, more investment is needed to ensure that commuter rail 
agencies can pay for ongoing operation and maintenance costs of PTC, 
and other critical infrastructure needs.

        APTA urges Congress to authorize a total of $1 billion over six 
        years ($160 million per year) under the CRISI program 
        specifically to provide grants to publicly-funded commuter 
        railroads to implement, operate, and maintain PTC.
       highway-rail grade-crossing safety and trespassing issues
Grade-Crossing Safety
    Although great progress has been made on PTC, highway-rail grade-
crossing safety and trespassing remain significant issues. Over the 
last five years (2014-2018), 96 percent of commuter railroad fatalities 
were attributable to trespassers or highway-rail grade-crossing users.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Our commuter railroads have been working hard to mitigate these 
incidents, often involving unlawful entry to the railroad's right of 
way. These incidents cost lives, cause serious injuries and property 
losses, and result in delays to the traveling public. To address 
highway-rail grade-crossing hazards, commuter rail agencies are using 
myriad treatments and technologies, including creating pedestrian 
crossings, constructing corridor fencing, installing delineators, and 
placing cameras at crossings and in rail cars. Education is key and 
many commuter rail agencies have participated in specific campaigns to 
reduce highway-rail grade-crossing incidents. Engineered solutions are 
very expensive to construct.
    Private sector mapping technology is also critical to combating 
this significant safety issue. For example, the Metropolitan 
Transportation Authority, on behalf of the Long Island Rail Road (LIRR) 
and Metro-North, has partnered with Waze to integrate a railroad 
crossing warning into its GPS application. The application warns 
drivers that they are approaching a grade crossing and whether the turn 
is before or after the crossing along with other traffic and highway 
information. LIRR and Metro-North upload the grade-crossing data daily 
to be used in the application.
    APTA is encouraged by these individual partnerships with technology 
companies and welcomes other map navigation developers to work with our 
industry to add automatic notifications of railroad grade crossings to 
their maps. There are too many senseless incidents and deaths because 
cars do not stop at grade crossings or bypass the gates. Navigation 
developers have created powerful tools for helping us find our way and 
drive more safely. With their support, we can provide an important tool 
to warn drivers and prevent needless accidents and deaths.
    It will take a collective effort to reduce these grade-crossing 
incidents. Although we are grateful for Congress' continued funding of 
grade-crossing measures under the railway-highway crossings set-aside 
(23 U.S.C. Sec. 130), more needs to be done.

        APTA urges Congress to authorize a total of $1.5 billion over 
        six years ($225 million per year) under the CRISI program to 
        provide grants to commuter and other high-performance passenger 
        railroads for highway-rail grade-crossing safety initiatives.
Trespassing on Railroad Properties
    Commuter railroads are also addressing the long-standing, critical 
issue of trespassing on railroad tracks. APTA's most recent analysis of 
commuter rail data over the last five years indicate that trespassing 
remains a major contributing factor to railroad fatalities--nearly 70 
percent of rail-related fatalities were as a result of trespassing. 
Causal factors for trespassing-related fatalities include suicide, 
direct-route crossing, and general distraction.\7\ Trespassing issues 
are complex. Our commuter railroads have partnered with their local 
communities, mental health care providers, law enforcement, and 
national organizations to launch educational campaigns about the 
dangers of trespassing and to develop ways to mitigate these incidents.
---------------------------------------------------------------------------
    \7\ Federal Railroad Administration, Report to Congress: National 
Strategy to Prevent Trespassing on Railroad Property (October 2018), at 
11.
---------------------------------------------------------------------------
    APTA and its commuter rail members will continue to be leading 
advocates to improve railroad and public safety. We urge Congress to do 
its part by providing the funding that is needed to assist commuter 
rail in making these important safety investments. In addition, we urge 
Congress to ensure that the rail statutes and regulations, which are 
often very prescriptive, do not prevent railroads from introducing new 
technologies to make our railroads safer.
        Federal Investment in Commuter Rail is Critically Needed
    We strongly urge Congress to increase federal funding for public 
transportation, including commuter rail. The federal, state, and local 
partnership is essential to ensure that critical investments are made 
to our public transportation systems.
    Federal funding through FTA, namely Section 5307 Urbanized Area 
Formula grants and Section 5337 State of Good Repair grants, provides 
commuter rail agencies with some assistance but falls short of the 
federal investment needed. Commuter railroads are also eligible for 
FTA's Section 5309 Capital Investment Grants (CIG) program. Since 2000, 
16 commuter rail projects have received Full Funding Grant Agreements 
under the CIG program. In addition, five commuter rail projects, 
requesting $8 billion, are in the CIG pipeline.\8\
---------------------------------------------------------------------------
    \8\ A list of the CIG projects with Full Funding Grant Agreements 
and those in the CIG pipeline is in Appendix B.
---------------------------------------------------------------------------
    The economic benefits of these projects reach far beyond the 
railroad's specific region. For example, a commuter rail project in 
Florida may include parts, materials, or equipment from a supplier in 
Alabama, Arkansas, Georgia, or Wisconsin. These commuter rail projects 
also represent thousands of construction jobs, manufacturing jobs, and 
other jobs generated by multiplier effects associated with spending on 
parts and materials. Appendix C illustrates the jobs created across 
America in rail car manufacturing.
    A good example of the far-reaching economic benefits of investing 
in commuter rail is the project that the Peninsula Corridor Joint 
Powers Board is undertaking to modernize its CalTrain commuter rail 
system. In the San Jose-San Francisco corridor, the Joint Powers Board 
is investing $1.9 billion (including $647 million of CIG funds) to 
electrify approximately 51 miles, providing increased service and 
performance improvements to the communities along this commuter 
route.\9\ However, the benefits of this project are felt nationwide. 
For instance, the electric train manufacturer (Stadler Rail) 
constructed a new facility with 350 employees in Utah to build the 
train sets and components and parts are being manufactured in 12 
different states.
---------------------------------------------------------------------------
    \9\ See Caltrain Modernization Project at http://www.caltrain.com/
projectsplans/CaltrainModernization.html

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Moreover, after a new commuter line is constructed and operational, 
there are ongoing, permanent economic growth and development impacts 
enabled by the transportation improvements and associated economic 
productivity gains. Investment in commuter rail is critical to ensuring 
that it can continue to spur economic growth, reduce congestion, and 
connect people to their jobs and communities.
          Surface Transportation Authorization Recommendations
    Over the past 18 months, APTA has solicited input from our diverse 
membership on priorities for the Surface Transportation Authorization 
Act. At our Legislative Committee meeting on June 23, 2019, members 
unanimously approved APTA's surface transportation authorization 
recommendations, which include proposals for commuter and high-
performance intercity passenger rail. In October, APTA's Board of 
Directors will consider these recommendations for final approval.
    APTA strongly urges the Committee to invest $145 billion over six 
years in public transportation and fund critical projects that will 
repair, maintain, and improve our public transit systems (including 
commuter rail) today and in the future. Our proposal, which includes 
$112 billion for Urbanized Area Formula, State of Good Repair, and CIG 
grants, would address the entire state-of-good-repair backlog and fund 
all CIG projects in the pipeline in the next six years.
    Along with this increased funding, APTA recommends that the 
Committee conduct a zero-based review of the CIG program to assess all 
statutory, regulatory, and other administrative requirements. We have 
previously testified that the bureaucratic maze that project sponsors, 
including commuter railroads, must adhere to is costly and burdensome.
    Finally, APTA calls on the Committee to create a Passenger Rail 
Trust Fund funded in part with new, long-term, dedicated revenues to 
significantly increase passenger rail investment to $32 billion over 
six years. This investment would include $7.1 billion for CRISI grants.
    As noted above, more investment is needed to ensure that commuter 
rail agencies can pay for ongoing operation and maintenance costs of 
PTC and mitigate grade-crossing incidents. APTA urges the Committee to 
expand the eligibility of the CRISI grant program to commuter rail to 
provide funding for:

    <bullet>  Operations and maintenance of PTC ($160 million per year/
$1 billion over six years); and
    <bullet>  Passenger Rail-Highway Grade Crossing Grants ($250 
million per year/$1.5 billion over six years).

    Congress must provide the necessary, dedicated funding to ensure 
safe, reliable, and efficient commuter rail systems.
                               Conclusion
    On behalf of APTA, thank you for giving me the opportunity to 
testify and share our thoughts on ``Challenges and Opportunities for 
Commuter Railroads''. We look forward to working with the Committee on 
Transportation and Infrastructure as it writes the next Surface 
Transportation Authorization Act. It is imperative that we make 
meaningful investments in commuter rail to enable these critical 
services to continue to grow, serve our communities, and contribute to 
the national economy.
                               Appendix A

                                            32 Commuter Rail Agencies
----------------------------------------------------------------------------------------------------------------
                                                                                                      Ridership
                                                                                                         2018
     State        Primary City   Urbanized Area                    Agency                     Year    (Unlinked
                      Name                                                                   Opened   Passenger
                                                                                                        Trips)
----------------------------------------------------------------------------------------------------------------
        Alaska       Anchorage       Anchorage         Alaska Railroad Corporation (ARRC)     1923       199,666
    California                Los Angeles     Los AngeleSouthern California Regional Rail     1991    12,523,337
                                                            Authority (SCRRA) (Metrolink)
    California       San Diego       San Diego    North San Diego County Transit District     1995     3,838,002
                                                              (NCTD) (Coaster & Sprinter)
    California   San Francisco   San Francisco      Peninsula Corridor Joint Powers Board     1992    18,562,763
                                                                       (PCJPB) (CalTrain)
    California   San Francisco   San Francisco       San Francisco Bay Area Rapid Transit     2018     1,316,134
                                                                  District (Bart) (eBART)
    California      San Rafael   San Francisco    Sonoma Marin Area Rail Transit District     2017       714,653
                                                                                  (SMART)
    California        Stockton        San Jose       Altamont Commuter Express (ACE) (ACE     1998     1,479,150
                                                                                    Rail)
      Colorado          Denver          Denver   Regional Transportation District (Denver     2016     7,619,589
                                                                                     RTD)
   Connecticut       New Haven       New Haven   Connecticut Department of Transportation     1990       597,616
                                                                                   Shore Line East (SLE)
       Florida           Miami           Miami      South Florida Regional Transportation     1989     4,414,030
                                                                     Authority (Tri-Rail)
       Florida         Orlando         Orlando                                    SunRail     2014     1,114,859
      Illinois         Chicago         Chicago       Northeast Illinois Regional Commuter     1856    68,446,239
                                                                    Railroad Corp (Metra)
       Indiana         Chicago         Chicago   Northern Indiana Commuter Transportation     1908     3,400,197
                                                           District (NICTD) (South Shore Line)
         Maine        Portland        Portland        Northern New England Passenger Rail     2001       534,058
                                                                       Authority (NNEPRA)
      Maryland       Baltimore       Baltimore     Maryland Area Regional Commuter (MARC)     1830     9,387,801
 Massachusetts          Boston          Boston           Massachusetts Bay Transportation     1931    32,143,251
                                                                         Authority (MBTA)
     Minnesota     Minneapolis     Minneapolis      Metro Transit Northstar Commuter Rail     2009       787,327
                                                                              (Northstar)
    New Jersey        New York        New York         New Jersey Transit Corporation (NJ     1839    91,170,160
                                                                  TRANSIT) (Rail & River Line)
    New Mexico     Albuquerque     Albuquerque                   New Mexico (Rail Runner)     2006       771,602
      New York        New York        New York      Metro-North Commuter Railroad Company     1832    91,873,366
                                                                            (Metro-North)
      New York        New York        New York                                       MTA Long 1844nd 105,538,101LIRR)
        Oregon        Portland        Portland     Tri-County Metropolitan Transportation     2009       394,708
                                                     District of Oregon (TriMet)(Westside
                                                                                 Express)
  Pennsylvania      Harrisburg    Philadelphia   Pennsylvania Department of Transportation    1980     1,533,055
                                                                                Keystone Line (Keystone)
  Pennsylvania    Philadelphia    Philadelphia   Southeastern Pennsylvania Transportation     1834    33,318,746
                                                                        Authority (SEPTA)
     Tennessee       Nashville       Nashville   Regional Transportation Authority (Music     2006       298,765
                                                                               City Star)
         Texas          Austin          Austin        Capital Metropolitan Transportation     2010       807,869
                                                                   Authority (Metro Rail)
         Texas          Dallas          Dallas              Trinity Railway Express (TRE)     1990     2,039,990
         Texas          Denton          Denton   Denton County Transportation Authority (A    2011       409,667
                                                                                   Train)
         Texas      Fort Worth          Dallas                                    TEXRail     2019           N/A
          Utah           Salt Lake City  Salt Lake CUtah Transit Authority (Front Runner)     2008     5,082,168
      Virginia      Washington      Washington             Virginia Railway Express (VRE)     1992     4,529,091
    Washington         Seattle         Seattle       Central Puget Sound Regional Transit     2000     4,631,525
                                                                      Authority (Sounder)
----------------------------------------------------------------------------------------------------------------
APTA's list includes all commuter and hybrid rail agencies that receive funding from the Federal Transit
  Administration and report data to the National Transit Database.
NNEPRA and Keystone are operated by Amtrak and are counted in the FTA National Transit Database.
TexRail opened in 2019 and therefore does not have any 2018 ridership.

                               Appendix B

                                 Commuter Rail Capital Investment Grant Projects
                                                  (Since 2000)
                                                  (in millions)
----------------------------------------------------------------------------------------------------------------
                                                                                           Total
   State                Project Sponsor                          Project               Project Cost  CIG Funding
----------------------------------------------------------------------------------------------------------------
                                       Projects with FFGAs
      CA         Joint Powers Board (Caltrain)         Caltrain Peninsula Corridor         $1,931         $647
                                                           Electrification Project
      CA       Riverside County Transportation            Riverside-Perris Valley Line       $248          $75
                                    Commission
      CA        Sonoma-Marin Area Rail Transit               SMART-San Raphael to Larkspur    $55          $23
                                      District                 Regional Connection
      CO        Denver Regional Transportation                  Denver - RTD Eagle         $2,043       $1,030
                                      District
       FL               South Florida Regional                               Fort Lauderdale-$334Rail Comm$111
                      Transportation Authority                        Rail Upgrade
       FL    Florida Department of Transportation  Orlando, Central Florida Commuter         $357         $179
                                                                      Rail Transit
       FL    Florida Department of Transportation  Orlando, Central Florida Commuter         $187          $93
                                                        Rail Transit Phase 2 South
       IL    Regional Transportation Authority     Chicago-Metra Southwest Corridor          $198         $103
                                                                     Commuter Rail
       IL    Regional Transportation Authority               Chicago-North Central           $226         $135
       IL    Regional Transportation Authority                    Chicago-UP West Line Extens$135          $81
       IL            Chicago Transit Authority                  Chicago-Ravenswood           $530         $246
      MN                  Metropolitan Council      Minneapolis-Northstar Corridor           $317         $156
                                                                              Rail
      NY     New York Metropolitan Transportation      New York-East Side Access (LIRR)    $7,386       $2,632
                                     Authority
      OR               Tri-County Metropolitan     Wilsonville to Beaverton, Oregon          $117          $59
             Transportation District of Oregon                       Commuter Rail
      TX     Fort Worth Transportation Authority                Fort Worth TEXRail         $1,034         $499
      UT                Utah Transit Authority                               Salt Lake-Weber $612ty to Sal$489
                                                                                  Lake City
                                                                                      --------------------------
  Subtotal for Commuter Rail FFGA Projects...........................................     $15,710       $6,557
                                                                                      --------------------------
 
                              Projects in the CIG Pipeline
       FL    Florida Department of Transportation  SunRail Connector to the Orlando     $175-$225          TBD
                                                             International Airport
       FL    Florida Department of Transportation           SunRail Phase II North            $69          $34
       IL            Northern Indiana Commuter                               West Lake Corrid$891roject   $440
                       Transportation District
      NJ           Gateway Program Development         Portal North Bridge Project         $1,642         $811
                                   Corporation
   NY/NJ           Gateway Program Development               Hudson Tunnel Project        $13,702       $6,769
                                   Corporation
                                                                                      --------------------------
  Subtotal for Commuter Rail CIG Pipeline Projects...................................     $16,529       $8,054
                                                                                      --------------------------
    Total Funding for Commuter Rail CIG Projects.....................................     $32,239      $14,612
----------------------------------------------------------------------------------------------------------------

                               Appendix C

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Lipinski. Thank you, Mr. Skoutelas.
    I now recognize Mr. Derwinski for 5 minutes.
    Mr. Derwinski. Good afternoon, Chairman Lipinski, Ranking 
Member Crawford, members of this esteemed committee. My name is 
Jim Derwinski, executive director and CEO of Metra in Chicago. 
In addition, I also represent APTA on their board of directors 
and the Commuter Rail CEO Committee, and I am also chairman of 
the recently formed Commuter Rail Coalition. I am pleased to 
have this opportunity to be here today.
    Let me first begin by commending the leadership that 
Chairman Lipinski and Congressman Garcia have brought in 
advancing transportation infrastructure needs in our region and 
in the Nation. On behalf of Metra and its 280,000 daily 
commuters, we thank you for all that you do for us.
    Broadly, Metra and the commuter rail industry face two 
major challenges: a lack of sustainable, consistent Federal 
funding for operations and capital projects, and constraints on 
our ability to grow. Throughout the United States, commuter 
rail systems receive a combination of Federal, State, and local 
government funds. Not all receive Federal.
    Metra was created in 1983 by the Illinois General Assembly, 
and since then has invested over $6 billion into our network. 
Yet our own regional transportation association estimates we 
will still need to spend $1.2 billion a year over the next 10 
years just to achieve and maintain a state of good repair. 
Growth is not in that equation.
    Our estimate to complete PTC installation will cost Metra 
over $400 million, which equates currently to 2\1/2\ years of 
our Federal formula funding. It also will put a burden on our 
operating expenses of $20 million annually. All commuter 
railroads have the same ongoing operating costs, as Mr. 
Skoutelas pointed out.
    I wanted to take the opportunity to thank Congress and the 
FRA for allowing commuter railroads, including Metra, to 
utilize the CRISI grant program for PTC projects. However, this 
source of funding is not sustainable, and we strongly believe 
more needs to be done by Congress. Creating a new dedicated 
commuter rail grant program would provide some relief to public 
agencies to address PTC operations and maintenance costs and 
associated capital costs. It would also help to ensure that 
many commuter rail systems across the country are no longer 
forced to rely on sporadic discretionary grants, and can 
effectively plan for both safety and capital expenditures.
    Our second major challenge has been the constrained growth 
of our system in the face of increased demand. Recent studies 
have shown that more than 80 percent of the U.S. population 
lives in urban areas. That is up from 64 percent in 1950. The 
number is projected to grow to 90 percent by 2050. This rapid 
pace of change in the commuter rail industry reflects these 
facts.
    For example, when Congress created Amtrak in 1970, there 
was one public commuter rail agency. As Mr. Skoutelas just 
pointed out, today there are 32. This rapid growth has placed 
an incredible demand on the railroad infrastructure capacity.
    The convenience and necessity of moving people and 
passenger trains can create friction with our freight rail 
partners and Amtrak. These issues are particularly acute in 
high-density areas. These situations can cause tension and 
unfortunate delays for both commuter, intercity passenger, and 
freight.
    Commuter rail desires a relationship with Amtrak that is 
fair and transparent. In 2016, the GAO conducted a study to 
review Amtrak's efforts to reorganize and reform. The report 
found that several material weaknesses and significant 
deficiencies have hindered Amtrak's ability to create 
consistent and timely accounting documents and financial 
information. Amtrak's accounting and transparency issues have 
led to challenges in commuter railroad relationships. We 
encourage this committee to implement the GAO report's 
recommendations.
    Lastly, despite the intention of past Congresses to give 
preference to passenger trains over freight, recently, the 
concept of public convenience and necessity has been focused on 
the interests of freight railroads and their customers, and 
less on the interests of publicly funded commuter railroads. 
Under Federal law, certain preferences have been given to 
Amtrak. However, those preferences have not been extended to 
the publicly funded commuter railroads, even though many run on 
the same tracks with Amtrak and the freight railroads.
    This Chamber has already begun to consider these types of 
issues in a thoughtful manner. Chairman Lipinski constructively 
worked with the appropriators in the 2020 THUD bill to improve 
on-time performance to Chicago. Metra is proud that we have 
maintained a 93-percent or higher on-time performance since 
1983.
    To be clear, Metra and the 13 freight railroads in Chicago 
work closely daily to move passengers and goods through the 
most complicated network in the country. Our freight partners 
demonstrate their commitment to this vital public asset daily.
    We also applaud the chairman's and this committee's 
leadership on the CREATE program. It continues to be a positive 
example of Federal Government, rail operators, and local and 
State governments coming together to tackle major challenges 
like Chicago's congested rail network. Increasing investment in 
programs like CREATE are clear solutions to relieving 
congestion on railroad infrastructure that benefit all rail 
operators, public and private, by increasing movement of 
trains, not increasing the parking of trains in communities.
    Metra thanks Congress for its continued support of public 
transportation systems like ours, and appreciates the 
opportunity to update this committee on our challenges, and I 
look forward to your questions. Thank you.
    [Mr. Derwinski's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of James Derwinski, Chief Executive Officer/
              Executive Director, Metra Commuter Railroad
    Good morning, Chairman Lipinski, Ranking Member Crawford, and 
Members of this esteemed Subcommittee. My name is Jim Derwinski and I 
am CEO/Executive Director of Metra, the Chicago-area's commuter rail 
agency. I am also here representing the commuter rail industry as a 
member of the APTA Board of Directors and Commuter Rail CEO Committee, 
and as Chairman of the newly formed Commuter Rail Coalition. I am 
pleased to have this opportunity to speak to you today.
    Let me first begin by commending the tremendous leadership that 
Chairman Lipinski and Congressman Garcia have brought in advancing 
transportation and infrastructure in our region and in our nation. On 
behalf of Metra and the 300,000 daily commuters, we thank you for all 
that you do and will continue to do for us and the Chicago region.
    As background, Metra was created to run Chicago's commuter rail 
system by the Illinois General Assembly in 1983. Our creation followed 
a tumultuous period in which the private railroads that had been 
operating the service experienced major financial problems and 
bankruptcies.
    Over the years, Metra has grown to be the largest commuter railroad 
in the country based on track miles, and the fourth largest based on 
ridership. The Metra system has 11 separate lines with 242 stations and 
nearly 1,200 miles of track throughout the northeastern Illinois 
region. Metra owns and operates four of those lines, has trackage-
rights or lease agreements to operate Metra trains over freight 
railroads on three lines, and has purchase of service agreements with 
two freight railroads, which operate commuter service on four other 
Metra lines.
    Metra's primary business is to serve people traveling to downtown 
Chicago to work. Approximately half of all work trips made from 
suburban Chicago to downtown are on Metra. Our riders, whose trips 
average 22 miles in length, come from all parts of our region's 3,700 
square miles.
    Broadly, Metra, and the commuter rail industry, face two broad 
challenges: a lack of sustainable and consistent federal funding for 
operations and capital projects and a legacy passenger rail system that 
must grow its service to meet increased demand but is constrained by 
several external forces.
    Throughout the United States, commuter rail systems receive a 
combination of funding from federal, state, and local government 
sources, though not all receive federal funds. Our industry has been 
working diligently to install and implement Positive Train Control 
(PTC), but the federal safety mandate has put great strain on our 
limited dollars for state of good repair and capital projects. I am 
pleased to report that Metra will meet its 2020 Alternative Schedule 
deadline for PTC implementation. Further, legacy commuter railroads, 
like Metra, face unique capital challenges as we work to maintain and 
upgrade aging track infrastructure and rolling stock.
    Since 1985, Metra has invested more than $6 billion to rebuild, 
maintain and expand Chicagoland's passenger rail network. Operating 
funding is provided through system-generated revenues--primarily 
fares--and subsidized in large part through a regional sales tax. 
Capital funding is provided through a variety of federal programs, 
state and local funding sources, and a small amount of fare revenue. 
Metra's total budget for 2018 was $994 million. That includes $797 
million for operations and $197 million for capital.
    Capital funding to maintain and improve our aging system remains a 
constant challenge. Metra's capital program is mostly funded through 
federal formula funds (Sec. 5307 and 5337) totaling $173.6 million for 
Fiscal Year (FY) 2019. However, our needs far exceed the level of 
funding available. In fact, the Regional Transportation Authority 
(RTA), our region's transit funding and oversight agency, estimates 
that Metra needs to invest $1.2 billion annually over the next decade 
to achieve and maintain a state of good repair.
    While we must reinvest in our network to continue to safely and 
efficiently move our customers, our complete PTC system is expected to 
cost Metra more than $400 million, equal to the amount of federal 
formula funding Metra receives every 2\1/2\ years. Further, based on 
our own estimates and discussions with our freight railroad partners, 
PTC operation and maintenance costs are expected to be between 5-10% of 
the total installation cost per year, or $15-$20 million with no 
current federal financial assistance available.
    I wanted to take this opportunity to thank Congress and the Federal 
Railroad Administration (FRA) for allowing commuter railroads, 
including Metra, to utilize the Consolidated Rail Infrastructure and 
Safety Improvement (CRISI) grant program for PTC projects. However, 
this source of funding is not sustainable, and we strongly believe more 
needs to be done by Congress to financially help commuter rail agencies 
with the ongoing costs of PTC, especially those agencies that will meet 
their statutory PTC deadlines.
    There is no doubt that the federal PTC mandate has added to the 
pressure on our capital and state of good repair needs and the expected 
PTC operations and maintenance costs will continue to add pressure for 
years to come. While the State of Illinois recently passed a much-
needed state capital bill, which will help address some of our needs, 
we believe the federal government has a role to play in recognizing and 
supporting the unique challenges faced by commuter railroads resulting 
from the dual mandate of PTC implementation and safely maintaining 
aging capital-intensive infrastructure. Creating a new grant program 
specifically for commuter railroads would provide some relief to these 
public agencies struggling the most to address PTC operations and 
maintenance costs and associated capital costs.
    The federal formula funding that Metra receives annually is the 
bedrock of our capital program. However, because our needs are great 
and state funding has been inconsistent, it has been nearly impossible 
to effectively budget and plan a capital renewal program. One area that 
Metra is struggling to meet demands is in its bridge infrastructure. 
Many of the bridges Metra operates over are aging and are expensive 
pieces of infrastructure to maintain. Congress may help us remedy this 
situation by increasing Section 5307 Urban Area Formula Grants and 
Section 5337 State of Good Repair transit formula funding. Further, we 
believe Congress should also consider creating a dedicated formula 
funding stream for commuter railroads to ensure the numerous commuter 
rail systems across the country are no longer forced to rely on 
sporadic discretionary grants and can effectively plan for both safety 
and capital expenditures.
    Metra, like other publicly funded railroads, is a highly regulated, 
capital-intensive entity. It requires a substantial annual investment 
to maintain its own rights-of-way and track structure. Metra's capital 
assets are diverse and extensive: locomotives, passenger cars, track 
signal and communications equipment, yard and maintenance facilities, 
station buildings, platforms, parking lots and headquarters. Each day, 
the delivery of safe, reliable, efficient train service depends on 
these assets. Constant maintenance, rehabilitation and replacement, and 
significant funding, are required to keep Metra's, and other commuter 
rail, facilities and equipment in working order.
    Our second major challenge has been constrained growth. Recent 
studies have shown that more than 80 percent of the U.S. populations 
live in urban areas, up from 64 percent in 1950. That number is 
projected to grow to 90 percent by 2050. The rapid pace of change in 
the passenger rail industry reflects this fact. For example, since this 
Congress created Amtrak as the nation's preeminent intercity and long-
distance passenger rail carrier in 1970, the growth of commuter rail 
services has been stunning. At the time of Amtrak's creation, there was 
one publicly owned commuter railroad. Today, there are now 
approximately 30 active commuter rail systems in the United States that 
deliver over 490 million passenger trips annually and provide the 
safest form of surface transportation for commuters. By comparison, in 
FY 2018, Amtrak served approximately 32 million passengers.
    However, publicly funded passenger rail, particularly old 
``legacy'' systems have struggled to keep up with this population 
growth and increased demand for service. In the metropolitan regions 
that we serve, our critical services support economic development, tax 
base growth, and livability. Additionally, many commuter rail agencies, 
like us, are now working directly with private employers to ensure new 
offices, factories, and facilities are accessible to our services.
    This rapid growth has placed an incredible demand on our limited 
railroad infrastructure capacity. Commuter rail agencies must 
coordinate with both the freight railroads and Amtrak in order to 
operate, especially in Chicago where we must deal with more than 700 
freight and Amtrak trains each weekday. While in general, we all work 
collaboratively in trying to solve issues and move goods and people in 
a capacity constrained system, like in all partnerships, there are 
sometimes challenges.
    The public convenience and necessity of moving people and passenger 
trains can create friction with our freight rail partners and Amtrak, 
particularly in high-density areas. Commuter railroads and Amtrak 
operate with one another over some of the most congested and complex 
areas in the United States, including the Northeast Corridor (NEC) and 
the greater Chicagoland region. Since we operate together in some of 
the most congested regions with limited available trackage for 
passenger rail operations, commuter railroads, Amtrak, and other 
passenger transportation services often share rail terminals, yard, and 
stations. While Amtrak often owns many of the rail assets and stations, 
it is no longer, necessarily, the only major passenger operator in the 
area. In fact, in certain instances, there are stations in which 
commuter railroad operations are responsible for over 50%, in some 
cases even 60%, or 70%, of the train movements, but do not own the 
underlying assets or infrastructure.
    Much in contrast to past history, recently the concept of public 
convenience and necessity has been focused on the interests of the 
freight railroads and their customers and less on the interests of 
publicly funded commuter railroads. Under federal law certain 
preferences have been given to Amtrak; however, those preferences have 
not been extended to publicly funded commuter railroads even though, in 
many cases, Amtrak, freight railroads and commuter railroads share the 
same tracks. While the free flow of interstate commerce is of great 
concern to the economic interest of the United States' economy, the 
flow of interstate commerce is for the benefit of the people of the 
United States. From their involvement in logistics operations to the 
actual operation of transportation vehicles, people are significantly 
involved in the flow of interstate commerce as well as being the 
beneficiaries of that flow of commerce. With the incredible growth of 
publicly funded commuter railroads perhaps the time has come to 
reconsider commuter rail's legislative standing regarding the essential 
public needs as expressed in the terms of public convenience and 
necessity of people verses the considerations of public convenience and 
necessity for freight railroads.
    In 2016, the Government Accountability Office (GAO) conducted a 
study to review Amtrak's efforts to reorganize and implement certain 
Passenger Rail Investment and Improvement Act (PRIIA) provisions 
intended to reform Amtrak. The report found that ``Amtrak has not 
developed clear information detailing the specific costs and 
activities,'' of its state-supported routes segment and that ``several 
material weaknesses and significant deficiencies'' have hindered 
Amtrak's ability to create consistent and timely accounting documents 
and financial information.\1\ Amtrak's accounting and transparency 
issues have led to challenges in commuter railroad relationships. While 
Metra does not operate a state-supported route, we have encountered 
similar issues with Amtrak's cost methodology formulas for shared 
station services--like security personnel--and infrastructure. While 
Metra, and other commuter railroads, are committed to paying our fair 
share for shared services and infrastructure, a lack of standard 
financial information and a transparency in cost methodology has led to 
frustration on both sides.
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. (2016, January). Amtrak: 
Better Reporting, Planning and Improved Financial Information Could 
Enhance Decision Making. (Publication No. GAO-16-67). Retrieved from 
GAO Reports Main Page via GPO Access database: http://
www.gpoaccess.gov/gaoreports/index.html.
---------------------------------------------------------------------------
    Clearly, further improvements could be made to enhance Amtrak's 
accountability for improving operational and financial performance. The 
GAO report made several such recommendations including the 
standardization of Amtrak financial reports, greater transparency in 
Amtrak's cost allocation formulas, and for Amtrak to adopt a strategic 
management system to improve performance across all of its business 
segments.\2\ Considering the importance of shared stations and state-
supported routes to commuter and intercity passengers, we encourage 
this Subcommittee to consider measures that improve transparency at 
Amtrak.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Our current passenger rail system has not kept up with the pace of 
growth in commuter rail operations. Short-trip and commuter passenger 
services have increased dramatically, yet lack parity with our 
intercity and long-distance passenger rail counterparts. We believe the 
federal government should consider mechanisms that level the playing 
field between Amtrak and publicly-owned commuter rail agencies.
    The House of Representatives has already begun to consider these 
issues in a thoughtful manner. Chairman Lipinski constructively worked 
with the THUD Appropriators in the FY 2020 bill to improve on-time 
performance in Chicago. The Chairman has suggested a collaborative 
process, led by the FRA, in which Amtrak, commuter railroads, and 
freight railroads all play a part in working together to improve on-
time performance in Chicago and develop recommendations to present to 
Congress. Metra is particularly proud that it has maintained an on time 
performance of 93 percent or better in each year since 1984, the year 
after Metra was created. This has been achieved despite operating one 
of the oldest fleets in the country. We appreciate the continued 
leadership of the House and the Chairman, on these matters, and hope to 
continue to provide a high on-time performance rate for our customers.
    As many of you know, Chicago's railroad network is very complex. 
About 500 freight trains and 760 passenger trains pass through the 
region each day. Freight trains from six Class I railroads, passenger 
trains from Amtrak, and commuter trains frequently interact and use the 
same tracks. Because of this, Metra has developed strong working 
relationships with freight railroads as we work together to effectively 
move passengers and freight across Chicagoland. Our partnerships are 
further enhanced by the landmark Chicago Region Environmental & 
Transportation Efficiency (CREATE) program led by Chairman Lipinski and 
others in our congressional delegation. This program continues to be a 
positive example of the federal government, rail operators, and local 
and state governments coming together to tackle a major challenge. 
Expanding capacity in Chicago, removing bottlenecks, and bringing the 
network to a state-of- good-repair will enhance passenger train speeds 
and ensure our freight partners can continue to effectively serve their 
customers. We continue to appreciate the Chairman's leadership on 
CREATE and would strongly support Congress and this Subcommittee as it 
considers other changes to ensure we have a modern passenger rail 
system that provides for a level playing field amongst all passenger 
rail operators.
    Congress will soon have several upcoming opportunities to address 
the unique needs of commuter railroads as its debates reauthorizing the 
Fixing America's Surface Transportation (FAST) Act. Metra looks forward 
to working with Congress as its debates authorizing new surface 
transportation programs. Our current funding situation is unsustainable 
and threatens the future viability of the important service Metra, and 
commuter railroads across the country, provide regionally and 
nationally. Additionally, we would support federal efforts to modernize 
the passenger rail system, improve accountability at Amtrak, and create 
a more level playing field between all passenger rail operators.
    Metra thanks Congress for its continued support of public 
transportation and systems like ours and appreciates the opportunity to 
update this committee on our operations and challenges. Federal support 
has provided a significant amount of the funding for our capital and 
safety needs over the last decade, and Metra will continue to depend on 
it while working with all our funding partners to secure additional 
assistance.
    Thank you for inviting me to testify and I look forward to 
answering any questions you may have.
    Mr. Lipinski. Thank you.
    Mr. Rogoff?
    Mr. Rogoff. Thank you, Mr. Chairman, Representatives Babin 
and Weber, members of the subcommittee.
    Sound Transit provides commuter rail, light rail, and 
express bus service throughout our 3-county region, which 
includes some 51 cities, including Seattle, Tacoma, and 
Everett. The unprecedented population growth in our region has 
caused highway congestion to more than double in just the last 
6 years. As such, our voters in 2016 approved and funded a $54 
billion ballot measure, which, when combined with our prior 
ballot measures, has launched us into the largest transit 
expansion program in the United States.
    I am going to focus my remarks this afternoon on the 
challenges we face in expanding commuter rail, specifically 
expanding our busiest Sounder South route, which has grown more 
than 30 percent just since 2014. The line is an extraordinarily 
great value, especially for the riders of Pierce County and 
cities like Lakewood, Tacoma, Sumner, Puyallup, and Auburn, 
who, for just about $5, can bypass the punishing congestion 
that is a daily occurrence on State Route 167, Interstate 405, 
and I-5.
    The challenges we face in expanding Sounder commuter rail 
directly relate to many of the unique challenges that the 
commuter rail industry faces writ large, which you are hearing 
about from my colleagues. Unlike our expanding light rail 
system, which we build and control ourselves, on Sounder we run 
along BNSF's main line, which also serves the Ports of Seattle 
and Tacoma. Together these two ports represent the Nation's 
second largest gateway to Asia.
    So we have one long segment of mainline track that must 
accommodate freight trains to these busy ports, Sound Transit 
commuter trains, State-funded Amtrak trains, federally funded 
Amtrak trains, and military deliveries to Joint Base Lewis-
McChord. We are trying to do a great deal over very constrained 
infrastructure.
    This is not a unique challenge for commuter railroads, but 
it may be especially acute in our region. It certainly presents 
challenges when we, the commuter railroad, are trying to 
deliver our passengers to their destination on time. As a 
transit provider, our service is only desirable if it is 
reliable, and nothing undermines the reliability of our Sounder 
trains more than interference with Amtrak or freight trains 
that are not running on time.
    It is in this congested environment in which we are now 
challenged to introduce additional commuter rail service to 
meet growing demand. Commuter rail is an expensive enterprise 
because of the operating and capital costs inherent in putting 
the service on the street every day. Unlike our light rail 
systems, for commuter rail we must negotiate for track access 
with BNSF, paying millions for each track easement.
    That said, the return on investment for commuter rail is 
tremendous for the working families who ride it. With our 
rapidly growing regional economy, to the extent that there is 
affordable housing to be found anywhere in our region, it is to 
be found in cities like Everett and Tacoma and the cities in 
east Pierce County that are served by Sounder commuter rail. As 
is the case for many growing cities around the country, it is 
not just middle-class families that are being pushed to the 
suburbs. The transit-dependent working poor are also being 
pushed farther and farther out of town in search of affordable 
housing.
    And we, as the federally funded regional transit agency, 
are both obliged and determined to serve them. Adequate Federal 
funding and streamlined Federal processes are essential in 
helping us to do so. When it comes to Federal funding, the 
taxpayers of the Puget Sound region are already financing 84 
percent of our overall system expansion, but we rely on Federal 
partnerships to finance the remainder. As such, we strongly 
support the expansion of Federal programs that help us meet the 
demands of our passengers. We participate in the Federal 
Transit Administration's Capital Investment Grants program and 
look forward to applying in the next few weeks under the FRA's 
CRISI Program.
    Going forward, as we expand our Sounder commuter rail 
service, we are very interested in investigating a partnership 
with the FTA's Core Capacity program, perhaps combining our 
local taxpayer investments with a combination of FTA Core 
Capacity funds and an FRA RRIF loan.
    Sound Transit is also the Nation's largest TIFIA borrower. 
We are the only recipient to date of a TIFIA master credit 
agreement. TIFIA has been an incredibly powerful tool in 
helping us borrow funds affordably to deliver improved service 
to our region.
    In the years I worked for the Federal Government both in 
Congress and at the U.S. DOT, I have had the privilege of 
having some level of involvement in each of the surface transit 
reauthorization bills going back to ISTEA in 1990. I have 
included in my written testimony 10 concrete recommendations 
that I would encourage you to consider for the next one. These 
recommendations are all about streamlining and harmonizing 
Federal programs and processes to make them more effective and 
less bureaucratic so we and our Federal partners could get 
improved service to our taxpayers more quickly. MAP-21 and the 
FAST Act made good progress in these areas. More remains to be 
done. So thank you for holding this hearing today. I look 
forward to your questions.
    [Mr. Rogoff's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Peter M. Rogoff, Chief Executive Officer, Sound 
                                Transit
    Chairman Lipinski, Ranking Member Crawford, Members of the 
Subcommittee, my name is Peter Rogoff. I have the privilege of serving 
as Chief Executive Officer of Sound Transit, the regional transit 
agency in Washington state's Puget Sound region.
    Sound Transit provides commuter rail, light rail, and express bus 
service throughout our three-county region, which includes some 51 
cities including Seattle, Tacoma and Everett. Our region is undergoing 
unprecedented population growth causing highway congestion to more than 
double in just the last six years. As such, our voters in 2016 approved 
and funded a $54 billion ballot measure which, when combined with our 
prior ballot measures, has launched us into the largest transit 
expansion program in the United States.
    While commuter rail from a ridership perspective is the smallest of 
the three services Sound Transit provides, it is also one of our 
fastest growing and we are currently in the planning stage to expand 
it. So I want to thank the subcommittee for holding this hearing on the 
unique challenges and opportunities for commuter rail. The issues and 
potential solutions certainly merit the Committee's attention.
    Our Sounder commuter rail consists of two lines on an 83-mile, 12-
station system. Sounder North runs between Everett and Seattle, and 
Sounder South runs between Lakewood, through Tacoma, and onto Seattle. 
Today, Sounder South is the most popular route and runs 13 round trips 
per weekday, along with occasional extra trains for weekend events. At 
the busiest times, trains carry as many as 1,000 riders each. The 
Sounder system has average weekday ridership of 16,000, up more than 
30% since 2014. Sound South is an extraordinary great value, especially 
for the riders of Pierce County in cities like Tacoma, Sumner, Puyallup 
and Auburn who can bypass the punishing congestion that is a daily 
occurrence on State Route 167, I-405, and I-5.
    We are currently in the early planning stages for a mix of 
investments to expand this service, both by expanding the capacity of 
the trains themselves and exploring the opportunity to operate a 
greater frequency of service during more hours of the day. In 2025, we 
will begin planning to expand Sounder South by 8 miles, with two new 
stations, including one near Joint Base Lewis-McChord--a major Pierce 
County employer with surrounding roadway congestion that is worsening 
each year
    The challenges we face in expanding Sounder commuter rail directly 
relate to the many unique challenges that the commuter rail industry 
faces.
    Unlike the 116-mile light rail system we are building--where we 
construct new right of way that we own, control, and manage as sole 
operators--on Sounder we own less than 10% of the tracks, with the 
majority owned by BNSF and shared with other operators such as Amtrak. 
We run along BNSF's mainline which also serves the critical employment 
centers of the Ports of Seattle and Tacoma. Together, they represent 
the nation's second largest gateway to Asia and fourth largest 
container port. As partners, we at Sound Transit are invested in the 
ports' continued growth just as we are invested in minimizing area 
highway congestion so their truck traffic can move. We have one 
mainline that must serve these busy Ports, Sound Transit commuter 
trains, state-funded Amtrak trains, federally funded Amtrak trains, and 
military rail deliveries to Joint Base Lewis-McChord. We are trying to 
accomplish a lot with one very busy but constrained segment of track. 
That is not a unique challenge for commuter railroads but it may be 
especially acute in our region. It certainly presents challenges when 
we, the commuter railroad, are trying to maintain the on-time 
performance for our current trains as well as introduce additional 
trains into service to meet growing passenger demand.
    Commuter rail is an expensive enterprise because of the operating 
and capital costs inherent in putting the service out each day. On a 
per-rider basis, our taxpayer subsidy per Sounder passenger is 50% 
higher than express buses and nearly triple the per-rider subsidy for 
our light rail passengers. Unlike our light rail system, where we 
construct new right-of-way we control, with commuter rail we must 
negotiate for track access with host railroads such as BNSF, paying 
millions for each track easement. Other factors driving up operating 
costs include the strong one-way peak demand from regional cities to 
central cities, which makes labor shifts inefficient to schedule and 
requires lots of mid-day storage space for trains as they wait for the 
next rush hour.
    That said, the ROI for commuter rail is tremendous for the working 
families that ride it. Unlike the late 20th-century paradigm where 
cities were poorer due to divestment and suburbs were wealthy due to 
urban flight, our region has joined many others in seeing the reverse: 
the suburbanization of working class families and the renaissance of 
wealthy metropolitan cities. Our central cities such as Seattle and 
Bellevue are booming job centers attracting global talent at companies 
such as Amazon, Microsoft, Boeing, Facebook, Google, Starbucks and REI. 
Even though our region has done better than some of our peer regions 
when it comes to housing production, we still are facing an affordable 
housing crisis. The average home price is more than $700,000 in Seattle 
and is nearly $1 million in Bellevue. To the extent that there is 
affordable housing to be found anywhere in our region, it is to be 
found in cities like Everett and Tacoma and the cities in East Pierce 
County that are served by Sounder Commuter Rail. These are outstanding 
communities in which to raise families. That suburban lifestyle in 
combination with more affordable housing is why residential growth has 
been particularly strong in Pierce and Snohomish counties, with growth 
rates that in recent years have outpaced that of neighboring King 
County, home to Seattle. That pattern is expected to continue in the 
future where households are expected to grow in Seattle 27% by 2040, 
58% in Everett and 56% in Puyallup.
    Without Sounder South, there would be no way a worker in a city 
such as Puyallup could get to Seattle in under an hour. The State Route 
167 corridor Sounder South serves has seen its traffic congestion 
increase by a staggering 27% recently. Traveling up to 79mph, Sounder 
South trains reach communities such as Puyallup and Sumner in half the 
time it takes a car or bus.
    The story is similar in Snohomish County to the north. The Everett-
Seattle corridor has some of the worst traffic in the country, and 
Sounder North provides traffic-free access to Seattle from Edmonds, 
Mukilteo and Everett.
    In 2016 our voters committed more than $1 billion to expand Sounder 
service, lengthen trains, and improve parking, walking and biking 
access. It is important to note that our region's voters are financing 
84% of our overall system expansion, but we rely on federal 
partnerships to finance the remainder.
    As such, we strongly support the expansion of Federal programs that 
help us meet the demands of our passengers. We serve as project 
sponsors in the Federal Transit Administration's Capital Investment 
Grants (CIG) program. We are currently constructing a light rail 
expansion to Lynnwood in Snohomish County, with 38 percent of the 
project cost coming from the CIG program. By the end of this year, we 
are hoping to receive a Full Funding Grant Agreement to extend our 
light rail network south to the City of Federal Way with 25 percent of 
the project cost coming from the CIG program. We also look forward to 
applying in the next few weeks under the Federal Railroad 
Administration's Consolidated Rail Infrastructure and Safety 
Improvements (CRISI) program. Our application will seek funds to double 
track sections of rail in Tacoma to remove chokepoints for Amtrak, 
Sounder and freight trains including military trains serving Joint Base 
Lewis-McChord. Going forward, as we expand our Sounder commuter rail 
service, we are very interested in investigating federal partnership 
with the FTA's Core Capacity program, perhaps combining our own 
investments with a combination of FTA Core Capacity funds and an FRA 
RRIF loan.
    Sound Transit has made extensive use of the TIFIA program as we 
have expanded our transit services throughout the region. We have a 
sizeable TIFIA loan but no CIG grant funding in our East Link project--
a 10-station light rail expansion across Lake Washington connecting the 
cities of Seattle, Bellevue, and Redmond that opens in 2023. We are 
also the only recipient to date of a TIFIA Master Credit Agreement 
(MCA) with the USDOT's Build America Bureau. By grouping four separate 
TIFIA loans together under this MCA, we have collectively saved our 
region's taxpayers between $200 and $300 million in borrowing costs. We 
have closed three of the four loans to date with the final closing 
expected this December. Two of these loans have been paired with FTA 
CIG funding to help us meet project costs. We look forward to the day 
where we might be able to combine FTA Core Capacity funding with either 
TIFIA or RRIF borrowings to expand Sounder commuter rail services.
    The remainder of my testimony goes into further detail about 
reforms we would recommend as you consider your authorization and 
funding decisions in the upcoming reauthorization cycle.
    One area I would encourage the Committee to pursue is the 
opportunity for further environmental streamlining to speed the 
delivery of Federally funded or permitted projects. In the Pacific 
Northwest, we are intensely focused on the environment, believing it is 
elemental to both our quality of life and our commercial success. It 
is, however, a frustration when the federal environmental and 
permitting process actually slows our ability to get projects delivered 
that are inherently beneficial to the environment. The sooner we can 
deliver viable high-capacity transit services to new communities, the 
sooner we can reduce greenhouse gas emissions along with other 
pollutants.
    I would encourage the Committee to consider approaches that would 
provide preferences and incentives to expedite approvals for projects 
that provide such substantial environmental benefits.
Implement One Federal Decision when using two or more funding programs
    When commuter railroads seek to combine FTA funds with RRIF loans, 
the Department of Transportation should create one process that 
streamlines the approval processes for the two federal decisions. This 
would be an extension of the ``One Federal Decision'' policy the 
Administration is implementing relative to environmental clearance. 
While separate approvals would still be required for the grant and the 
loan, the FTA and the Build America Bureau could jointly conduct much 
of the evaluation of the project in question. This would streamline the 
process and provide better coordination on the timing of decisions.
Ensure adequate federal agency staffing to reduce processing times
    Adequately staffed Federal agencies are essential to the prompt 
processing of permits, grant or loan funding, and environmental 
clearances. Having served as the Federal Transit Administrator during 
the Obama Administration, I am acutely aware of the challenges faced by 
a very thin staff as they process a very daunting workload. Sound 
Transit currently pays for additional staff at FTA Region X--who are 
prohibited from working on Sound Transit projects--as well as 
additional consultants to the FTA so that the agency has additional 
capacity to deal with our expanding capital program. While we are proud 
to partner with the FTA in this way, it is not the kind of solution 
that can be replicated nationwide. I would strongly encourage the 
committee to review the staffing levels of the FTA and FRA and 
authorize funding for increased staffing commensurate with what we find 
in other grant-making modal Administrations. It is also essential that 
attention be paid to the staffing levels at the natural resource 
agencies that are charged with conducting environmental clearances and 
permits, including the EPA, NOAA, the Army Corps, the Fish and Wildlife 
Service, the Coast Guard, the National Marine Fisheries Service, the 
National Parks and the Forest Service. It is not reasonable to think 
that these agencies can engage in project reviews early and process 
permits more quickly if their staffing is continually shrinking.
    Though costing federal agencies more up front, ensuring adequate 
staffing will result in net taxpayer savings due to faster project 
delivery, lower borrowing costs and a shorter inflation time window.
Harmonize RRIF and TIFIA procedures
    We believe the FRA's RRIF loan should work more like the DOT's 
TIFIA loan program. Under TIFIA, the Treasury pays the Credit Risk 
Premium out of funds appropriated by Congress, so that the borrower 
does not have to draw on loan proceeds to pay it. The RRIF program, on 
the other hand, does not have a similar mechanism and borrowers are 
required to pay the premium up front.
Extend RRIF TOD authority expiring December 4, 2019
    RRIF is available to support Transit Oriented Development loans so 
that transit agencies can support the development of commercial and 
residential buildings that support the transportation network. That 
authority will expire on December 4, 2019, before the rest of the FAST 
Act programs expire. Extending the TOD authority so that it aligns with 
the rest of the programs in the FAST Act, or eliminating the expiration 
date altogether, would ensure this authority remains available.
Streamline TIFIA loan compliance procedures
    Sound Transit has combined TIFIA loans with CIG funding for light 
rail extensions included in Sound Transit's TIFIA Master Credit 
Agreement (MCA). Despite the fact that TIFIA is a loan fully repaid 
with interest, some TIFIA requirements are more onerous than for CIG 
grants. For example, TIFIA requires FTA or PMOC review for all physical 
invoices--on $3+ billion projects--which creates substantial workload 
for the grantee, FTA, and/or PMOC. For TIFIA recipients with low credit 
risk such as Sound Transit, we ask that drawdowns be able to occur with 
oversight provided by the annual single audit, FTA triennial review or 
other existing grant oversight reviews.
Improve CIG Core Capacity definitions
    Under current core capacity requirements, commuter rail projects 
need to show that they will be ``at capacity'' today or in five years 
to be eligible. But since the CIG process itself can take five or more 
years, qualifying projects will be over capacity before beginning 
construction. Expanding the timeframe from five years to ten years, for 
example, could streamline the process and get core capacity projects 
approved and built faster.
Provide more clarity on FRA's System Safety Rule
    FRA's System Safety Rule is an opportunity for commuter railroads 
to take a holistic safety approach that considers local conditions and 
takes advantage of the benefits of various engineering, technical, and 
system management approaches. Commuter rail agencies would benefit from 
having clearer FRA direction on approval standards for System Safety 
plans. The absence of clear standards for plans creates a more 
interactive role for the FRA in plan development, and exposes agencies 
to risk by creating an iterative approval process where conditions may 
change unpredictably. Sound Transit welcomes the implementation of the 
new System Safety rule, but we would ask for more clarity up front on 
what the FRA will require for approval. Though we are pleased to have 
met the FRA's deadline for implementation of Positive Train Control 
(PTC), we have not forgotten the PTC-avoidable Amtrak derailment in 
2017 that claimed three lives on tracks owned by Sound Transit. We 
believe it is more important than ever that we work closely together on 
shared safety standards.
Expand the use of Categorical Exclusions (CEs) for work on existing 
        transit projects
    We believe transit agencies should be able to accelerate project 
delivery by being empowered to assume the responsibility and risk for 
approving routine projects under NEPA. State DOTs currently have 
programmatic CE agreements with FHWA and Section 1318 of MAP-21 sought 
to expand their application. Unlike state DOTs, local and regional 
transit agencies have not enjoyed this same flexibility. We believe 
Congress should authorize a pilot program enabling qualifying transit 
agencies to enter into programmatic CE agreements with FTA. We also 
believe that projects that can show an inherent environmental benefit, 
such as reducing greenhouse gases, should benefit from streamlined 
environmental procedures.
Modernize historic preservation laws
    We believe it is time to reconsider how to better harmonize the 
multiple environmental laws governing similar resources. A prime 
example is the treatment of historic resources protected by Section 
4(f) of the 1966 Transportation Act and Section 106 of the 1966 
National Historic Preservation Act. We need not diminish the 
requirements to consider and mitigate the impacts to our historic 
resources, but it is worth exploring how we can better harmonize the 
processes.
Align level boarding standards across agencies
    Sound Transit is fully committed to ensuring equal access for our 
riders with disabilities. We have been endeavoring to implement level 
boarding at station platforms to comply with regulations. However, 
BNSF, Amtrak Cascades, long-distance Amtrak trains and Sounder each 
have distinct rolling stock with a variety of track clearances, 
precluding a single ``level boarding'' platform. Although federal 
guidance suggests ways to accommodate these complexities, there are 
inherent challenges faced by commuter rail agencies that make achieving 
true level boarding nearly impossible. Sound Transit requests that 
regulators work together with us to identify and provide practical 
options that would help us achieve true level boarding.
    Thank you for the opportunity to share our insights as both a 
commuter rail operating agency and as federal grantee making use of 
several financing programs. We appreciate the attention you are 
devoting to these issues and we look forward to working with you to 
provide the efficient transportation system the American people rightly 
expect.
    Thank you.
    Mr. Lipinski. Thank you.
    And finally, I recognize Ms. Wiggins for 5 minutes.
    Ms. Wiggins. Good afternoon, Chairman Lipinski, Congressman 
Babin, and members of the subcommittee. Thank you for inviting 
me to participate on this panel to discuss the challenges and 
opportunities facing our Nation's commuter railroads. I am 
Stephanie Wiggins, and I assumed the chief executive officer 
position at Metrolink in January 2019. Since then I have been 
focused on how our rail service can help improve the lives of 
the 21 million people in southern California. A detailed 
written testimony has been submitted. I would like to highlight 
a few points.
    Metrolink began operating in 1992 with the idea to serve 
southern California. Today, Metrolink is literally and 
figuratively connecting southern California communities, and 
even into the northern portion of San Diego County. This is a 
vast 538-route-mile network. Last fiscal year, a record 11.9 
million trips were taken on Metrolink, the highest in our 26-
year history. This is equivalent to removing 9.3 million 
vehicles from our congested southern California roads. Even 
more significant, this is the fifth consecutive year we have 
seen growth in ridership.
    Commuter railroads give people more: more freedom, more 
connections to economic opportunity, and more time. In an era 
of escalating housing costs around the country, commuter 
railroads allow Americans to avoid having to choose between 
where they live and where they work. Riders avoid the stress 
associated with sitting in traffic for hours each day. We 
enable them to make a more environmentally friendly decision 
and to choose an overall healthier lifestyle.
    Why is commuter rail important? Southern California is 
notorious for soul-crushing traffic 24/7, and Metrolink is the 
alternative. Even half of our staff take it to work every day. 
My goal is to leverage our recent successes and unlock the 
great potential of Metrolink to double the ridership in the 
next 5 years. We want to be the premier regional rail system by 
the time southern California and the Nation are on the world 
stage again for the 2028 Olympic and Paralympic Games.
    Some 300 passenger and freight trains are dispatched on the 
Metrolink network every day. That is more than 50,000 trains 
each year. The freight trains carry the cargo that drives our 
economy, like shipments to and from the Ports of Los Angeles 
and Long Beach, which together serve as the entry point for 40 
percent of the Nation's goods.
    None of this would be possible without ensuring safety is 
at the core of what we do. Metrolink is proud to be one of the 
four railroads in the country to have PTC installed and fully 
interoperable by the congressionally mandated deadline.
    To acknowledge and appreciate this milestone, Metrolink 
hosted a rail safety summit as part of California's Rail Safety 
Month. We were honored to have National Transportation Safety 
Board Member Jennifer Homendy as our keynote speaker. Since 
this week is National Safety Week, I would be remiss if I did 
not highlight other safety initiatives on which Metrolink has 
sought to lead the way.
    We installed precursor technologies to PTC. We installed 
inward- and outward-facing cameras on locomotives and cab cars 
a decade prior to the proposed rules by the FRA. And we 
designed crash energy management into our newest rolling stock. 
We will continue to operate with safety as our core value.
    Another part of the vision is to have a zero incident 
railroad for grade crossing and trespasser strikes. The large 
geographic region serviced by Metrolink includes intercity 
passenger and freight rail that are all growing. And with 456 
at-grade crossings in the network, these are the most common 
interface points with railroads, and often the most precarious.
    And we must also ensure infrastructure is in a state of 
good repair, and our facilities and customer-facing 
technologies all provide the type of experience that will keep 
our customers coming back, and will entice new riders. To do so 
we need your help. Our State and region have stepped up to 
provide significant funding for infrastructure over the next 
decade. To make the best use of these funds we need to leverage 
Federal dollars.
    With that in mind we have the following requests: provide 
full eligibility to commuter rail for FRA-administered 
discretionary programs; provide substantially more funding for 
critical railroad crossing and right-of-way improvements; and 
include dedicated new funding for commuter rail that does not 
supplant existing funding sources.
    I thank you again for the opportunity to speak to the 
subcommittee today, and I look forward to today's dialogue.
    [Ms. Wiggins' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Stephanie N. Wiggins, Chief Executive Officer, 
     Southern California Regional Rail Authority (SCRRA)-Metrolink
                              Introduction
    Thank you Chairman Lipinski, Ranking Member Crawford and 
Subcommittee Members for the invitation to testify today on the many 
challenges and opportunities facing our nation's commuter railroads. I 
appreciate the opportunity to provide Metrolink's perspective as the 
largest commuter rail operator in California and the third largest in 
the Country.
    My name is Stephanie Wiggins, Chief Executive Officer of Metrolink 
(Southern California Regional Rail Authority). Metrolink began service 
in October 1992 with the ideal to serve the Southern California region 
with safe, efficient, dependable and on-time rail transportation 
service that offers outstanding customer experience and enhances 
quality of life. Today, Metrolink--a Joint Powers Authority--governed 
by an 11-member Board of Directors representing Los Angeles, Orange, 
Riverside, San Bernardino and Ventura counties, is literally and 
figuratively connecting Southern California communities. Metrolink's 
538 route miles also extend into the northern portion of San Diego 
County.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 The Metrolink system connects Southern California with a convenient, 
        reliable alternative to increasingly congested roadways.

                          The Metrolink System
    Southern California is a region with some of the most notoriously 
congested highways in the nation. For those commuting to work, 
Metrolink provides the freedom to live in almost any portion of the 
region with the option to hop on one of our trains to get to work. 
Every day, riders leave their personal vehicles at home and bypass the 
traffic and unpredictable highway commute in favor of a more relaxing 
and environmentally conscious ride. We connect multiple commercial 
markets, along with urban and rural areas, to major job centers all 
over Southern California--the largest of which is downtown Los Angeles 
where most of our lines converge at historic Los Angeles Union Station.
    The population of the six Southern California counties served by 
Metrolink is now 21.5 million people, more than half of California's 
total population. Over the next 15 years, these counties are forecasted 
to add one million people, while still striving to meet the State's 
ambitious goals to reduce Greenhouse Gas (GHG) emissions and make 
housing more affordable to all.
    Over the last five years, Metrolink has experienced sustained 
annual ridership growth, culminating in the highest ridership in our 
26-year history for Fiscal Year 2019, which ended on June 30, 2019. The 
11.9 million annual riders who chose Metrolink in Fiscal Year 2019 
represent a reduction of peak travel volume on parallel highways of up 
to 28%, as well as annual reductions of 335 million vehicle miles 
traveled (VMT) and 130,000 metric tons of GHG emissions--the equivalent 
of 9.3 million fewer car trips.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Metrolink system is the economic engine of our region. We share 
more than half of our system with our railroad partners. The Southern 
California rail system not only carries an average of 173 Metrolink 
commuter trains per day, but also up to 30 daily Amtrak intercity 
trains on the San Luis Obispo-Los Angeles-San Diego (LOSSAN) Corridor, 
as well as hundreds of Union Pacific Railroad (UPRR) and Burlington-
Northern Santa Fe (BNSF) Class I freight trains. UPRR and BNSF are 
hauling freight along these nationally significant corridors from the 
ports of Los Angeles and Long Beach, the nation's largest cargo 
gateway.
                                 Safety
    September 22 through 28 marks National Rail Safety Week. Therefore, 
it is timely to emphasize that safety is a foundational value at 
Metrolink, and we are proud to lead the nation in the innovation, 
collaboration, piloting and implementation of critical safety 
technologies--as well as providing thought leadership and studying 
lessons learned related to safety. Just two weeks ago, in support of 
Rail Safety Month in California, Metrolink hosted a national Rail 
Safety Summit to spur discussion and collaboration around improving 
rail safety across the region. The event featured a keynote by National 
Transportation Safety Board (NTSB) Member Jennifer Homendy, as well as 
discussions where panelists shared perspectives on ways to solve 
critical safety issues including evolving safety technologies, 
trespasser strikes, and the role of mental health and homelessness in 
the rise of fatal incidents across our region. Ultimately, the summit 
galvanized attendees to find creative solutions that will help our 
industry pursue a zero-incident future.
    Metrolink was the first commuter rail operator in the nation to 
bring Positive Train Control (PTC) technology online. PTC is a GPS-
based safety technology that can stop a train and prevent train-to-
train collisions, over-speed derailments and unauthorized train 
movement. This technology ensures the safety of our passengers and 
employees by acting as a safeguard against human errors and other 
potential hazards. Since 2009, Metrolink has committed approximately 
$250 million to develop and install PTC and advanced train control 
systems. Our agency has always been committed to the timely deployment 
of PTC. We have worked collaboratively with stakeholders, operators and 
regulatory agencies as an incubator for best practices and industry 
standards.
    Our systems are now interoperable with PTC on all host and tenant 
tracks with UPRR, BNSF and Amtrak. Metrolink continues to advance 
safety through projects like nearside crossing technology that can 
minimize the impacts to vehicular traffic at crossings that are 
adjacent to train stations. The technology keeps the gates from 
activating while the train is in the station until it is ready to 
depart and proceed through the crossing. This reduces the gate down 
times that impact cross-traffic and can lead to driver frustration and 
attempts to beat or go around the crossing gates.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As these technologies continue to evolve, there will continue to be 
new operations and maintenance costs associated with PTC technology. 
Our agency continues to budget between $8-$10 million annually for 
recurring costs associated with PTC. This commitment equates to an 
approximate 7.5% increase in Metrolink's total operations budget. In 
addition, we anticipate an additional $50 million is necessary over the 
next 10 years for the continued evolution of the PTC system. Safety is 
a core value you cannot put a price tag on. Nevertheless, for Metrolink 
to continuously build upon its successes, we will need the support of 
the federal government by making the waiver for technology applications 
under the Consolidated Rail Infrastructure and Safety Improvement 
(CRISI) Program permanent, as an example.
    PTC is just one part of the safety platform at Metrolink. We have 
gone beyond PTC to include additional technologies as part of 
Metrolink's commitment to the safety of our passengers, employees and 
the traveling public. These technologies include:
Automatic Train Stop (ATS)
    Prior to the instillation of PTC, Metrolink implemented ATS 
technology. In 2009, we expanded the use of ATS and have since kept the 
system as a redundant safety backstop during the installation of PTC. 
ATS includes magnetic inductors that are placed next to the track at 
locations where the train is approaching a curve or speed change. The 
ATS system includes an audible alarm and flashing alert on the 
engineer's control panel. The train brakes are then automatically 
applied if the engineer does not push a button acknowledging the alert 
within approximately eight seconds. Now that PTC has been installed, 
the older ATS technology will ultimately be phased out.
Inward and Outward Facing Cameras
    In 2009, Metrolink installed inward and outward facing cameras in 
all locomotives and cab cars. The observation of the operator and the 
right-of-way provides an additional layer of safety for our crews and 
passengers. This technology is recommended by the NTSB and was deployed 
a decade before the Federal Railroad Administration (FRA) published 
proposed rules. Today, all 62 locomotives and 73 cab cars have inward 
and outward facing cameras on board.
Crash Energy Management (CEM) Technology
    In 2010, Metrolink became the first passenger train service in the 
nation to debut the next generation of cab and passenger rail cars 
equipped with CEM technology. This safety feature is included in 117 of 
our passenger cars. CEM technology provides a unique collision-
absorption function with redesigned seats and work tables and advanced 
crumble zones at each end of the cars. This technology is analogous to 
the crumple zones found in private automobiles meant to dissipate the 
energy from a crash before the driver feels it.
Automated External Defibrillators (AEDs)
    In February 2019, Metrolink installed AEDs on all train cars, a 
critical safety resource to help those experiencing sudden cardiac 
arrest. The medical device can analyze the heart's rhythm and, if 
necessary, deliver an electronic shock, or defibrillation, to help the 
heart re-establish an effective rhythm. This technology provides a 
critical resource to passengers and train crews, just like they do to 
airports, sports venues and many workplaces around the country. 
Metrolink began the installation of AEDs prior to the introduction of 
state legislation requiring them and completed the installations more 
than a year ahead of a July 2020 deadline.
Surveillance Detection System
    Metrolink piloted a real time video software to monitor rail 
rights-of-way and detect pedestrians entering sensitive areas. We have 
tested the technology along the perimeter and entrance of our Central 
Maintenance Facility (CMF). The pilot allowed for an improved 
monitoring and response for unauthorized access into a determined area. 
We continue to test and refine the technology, which we intend to 
expand along the rights-of-way to provide notification to Metrolink's 
Security Operations Center (SOC) and Dispatch Operations Center (DOC) 
to stop train movement or reduce speeds in an area to reduce the risk 
and allow the opportunity to remove an individual.
                       Opportunities & Challenges
    Our region provides many opportunities to further the successes 
experienced by commuter rail operators across the country. Southern 
California relies on commuter rail to provide a convenient, viable 
alternative to driving severely congested roadways. In fact, Metrolink 
just recorded its highest ridership ever in its 26-year history--11.9 
million boardings. This record is also supported by five years of 
consecutive ridership increases on the Metrolink system. But it's more 
than that. We know that taking public transit contributes to our 
riders' physical health and overall better quality of life. According 
to the American Heart Association, taking public transportation results 
in people walking more, which contributes to cardiovascular health. In 
recognition of our complementary missions, Metrolink and the American 
Heart Association have started a new partnership that can better inform 
new audiences about the benefits and virtues Metrolink has to offer.
    What we do is important to the overall health of Southern 
California residents. According to the American Association of Retired 
Persons (AARP), it is projected that 8.7 million Americans will be age 
85 or older by 2030, and a substantial portion of them will no longer 
drive. Plus, as more millennials between the age of 20 and 37 express a 
willingness to take public transportation, despite having access to a 
car, Metrolink provides a vital transportation alternative for our 
region. 60% of Metrolink riders travel across county lines. More than 
85% of our riders own a car, and their average ride is 36 miles long.
    My customer-focused vision for the future is to double ridership in 
the next five years and to provide service no less than every 30 
minutes throughout the day. We will do this by tapping into the 
peoples' desires to leave their personal vehicles at home most of the 
time, be environmentally conscious, and by removing key barriers like 
infrequent or nonexistent mid-day service that can leave people feeling 
stranded.
    Metrolink is also a leader in the zero-emission future of rail 
transportation as Southern California sets aggressive targets to reduce 
mobile source emissions. The United States Environmental Protection 
Agency (EPA) has set standards for railway locomotive emissions that 
are designated by a tiered status, with Tier 4 being the highest 
achieved indicating the greatest reduction in pollutant emissions. 
Metrolink has received more than half of its purchased Tier 4 
locomotives, the remainder of which are scheduled to be delivered by 
summer 2020. These locomotives reduce emissions between 65% and 85% 
compared to legacy Tier 2 and Tier 0 locomotives. Metrolink was the 
first commuter rail operator in the State of California to deploy this 
technology. As part of a recent state grant award, Metrolink is now 
embarking on a fleet modernization study to further research 
opportunities accelerate deployment of a zero-emission operations 
strategy.
    We are at an important juncture for the future of commuter rail, 
which provides such a critical alternative to suffering through 
crushing traffic in our personal automobiles to connect us to each 
other, affordable housing to jobs, and to leisure travel opportunities 
as illustrated in the map below. As the House of Representative 
Transportation and Infrastructure (T&I) Committee considers future 
funding opportunities--either through a surface transportation 
authorization bill, formula funds or discretionary grant opportunities, 
we respectfully request that the following policy recommendations be 
considered.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        (Source: Southern California Association of Governments)

Surface Transportation Authorization Bill
    The Fixing America's Surface Transportation (FAST) Act authorizes 
transit programs through September 30, 2020. The reauthorization 
process provides an opportunity to provide new, long-term dedicated 
revenues to significantly increase commuter rail investments.
The Consolidated Rail Infrastructure and Safety Improvement (CRISI) 
        Program
    The CRISI Program was authorized in the FAST Act in 2015. The 
program consolidated five existing FRA funding programs into one safety 
and infrastructure funding source. Despite being regulated by the FRA, 
there are provisions within the CRISI Program that limit project 
eligibility to corridors that provide intercity rail service. With this 
provision, only half of the Metrolink system qualifies to receive 
program funding.
    The Metrolink system is critically important to maintaining 
national economic competitiveness. Our proximity to the ports of Los 
Angeles, Long Beach, Hueneme and San Diego contribute to over 62 
million metric tons of freight shipments carried over shared tracks 
annually. To ensure the safety and resilience of rail corridors for 
passenger and freight service, we request that Congress consider 
including full eligibility for commuter rail to be a qualified 
applicant for capital projects. We also request that the current waiver 
for technology applications be made permanent for further PTC 
developments.
Railroad Crossing Improvement Funding
    The Federal Highway Administration (FHWA) Railway-Highway Crossings 
(Section 130) Program provides funds to mitigate hazards at railway-
highway crossings. According to the FRA, in 2017, there were 274 
fatalities across the U.S and 38 deaths and 57 injuries in the State of 
California related to railway-highway crossings. Across urban and rural 
centers, the Metrolink service area includes 456 at-grade crossings. 
The large geographic region serviced by Metrolink includes intercity 
passenger and freight services that are all growing. Unfortunately, 
existing Section 130 funding does not meet national demand. These are 
the most common interface points with railroads, and often the most 
precarious. More funding is needed here for us to realize our 
continuous safety improvements that drive us to minimize risk and move 
towards a zero-incident future.
    There are further opportunities for commuter rail operators to 
incorporate innovative technologies into crossings. We encourage the 
FRA to consider support for new pilot programs and technologies that 
could revolutionize railroad crossing infrastructure. Metrolink is 
already leading the industry in crossing design standards with active 
pedestrian gates and vehicular and pedestrian channelization. We 
appreciate the opportunity to discuss new and emerging technologies. 
The passenger and freight service supported by railroad crossings are 
simply too important not to invest in.
    Without additional resources to reinforce Metrolink's 538 route 
miles of track, our system also remains vulnerable for trespassing. 
Metrolink has partnered with Operation Lifesaver to implement best 
practices to encourage safe behavior around the right-of-way through 
engineering, enforcement and education to deter trespassing. The FRA 
recently submitted a report to Congress on a national strategy to 
prevent trespassing on railroad property. We support the FRA's 
approach, which includes identifying new funding for trespasser 
mitigation.
State of Good Repair
    In an environment of limited resources, the focus on installation 
of PTC meant an increase in the state of good repair backlog. When 
compounded with constrained funding, Metrolink's maintenance and 
rehabilitation program includes a $444 million backlog of unfunded 
state-of-good-repair projects. These projects put Metrolink service at 
risk of delays and reduced speeds to ensure the safety of our 
operations. Our system requires $85 million annually in funding to 
maintain current rehabilitation conditions. Metrolink receives 
approximately $50-$60 million annually for maintenance and 
rehabilitation projects, which is below the funding amount to maintain 
current conditions. We require approximately $100 million annually in 
Fiscal Year 2020 to draw down the backlog over 20 years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Deferred maintenance can also have cascading impacts on delays for 
Metrolink, Amtrak and freight trains operating in the Southern 
California region. Conditions of rolling stock, equipment, track, 
signals and structures all impact our on-time performance. In FY 2019, 
track and signal related maintenance resulted in approximately 702 
Metrolink trains impacted by delays averaging 13 minutes, resulting in 
over 9,000 minutes in delays systemwide. Nevertheless, we have still 
realized improvements in on-time performance through better operating 
approaches. To keep this up, we must be able to address the backlog 
more quickly.
    For example, a tunnel on our Antelope Valley Line (AVL) support 
Metrolink and freight service through north Los Angeles County. Each 
weekday, 30 Metrolink AVL trains and five UPRR freight trains enter the 
tunnel between Newhall Station and Sylmar/San Fernando Stations. The 
tunnel has 4,300 wood ties and 69 pumps that remove water that is 
continually seeping into the tunnel, even in dry weather. The tunnel 
was originally built in 1876, reinforced with a concrete liner in 1924 
and received some improvements in the mid-1990s after the Northridge 
Earthquake. The tunnel recently received maintenance in 2015 and 2018; 
however, the maintenance performed was temporary and designed to keep 
this asset in service until a more permanent solution could be funded. 
A $12 million rehabilitation project in the tunnel would avoid nearly 
$58 million in life-cycle costs associated with additional inspection, 
emergency repairs and temporary fixes, as well as slow orders and bus 
bridges. Delays associated with the deferred maintenance are expected 
to cause a loss of 265,954 riders per year on the AVL, approximately 
16% of the line's total annual ridership--more than 1.8 million in 
Fiscal Year 2019.
Constrained Funding
    There are not enough resources to maintain a state of good repair 
and provide the necessary capacity projects to improve service. 
Metrolink is primarily funded through fare revenue, grants and JPA 
member agency subsidies. Our infrastructure needs further improvements 
and investments to meet regional demand for Metrolink service.
    Metrolink is working to leverage state and local grant programs to 
secure federal funding through programs like the US DOT Core Capacity, 
Infrastructure for Rebuilding America (INFRA) and Better Utilizing 
Investments to Leverage Development (BUILD) discretionary grant 
programs. We already have secured approximately $2 billion in state and 
local funding to deliver our Southern California Optimized Rail 
Expansion (SCORE) Program, which is a 10-year plan to improve railroad 
safety, efficiency, reliability and enable more railroad service 
throughout the Southern California region in time for the 2028 Olympic 
and Paralympic Games. According to Los Angeles County Economic 
Development Corporation analysis, the SCORE Program is expected to 
generate over 1.4 million jobs throughout the region and add $684 
billion to Southern California's regional gross product through 2050, 
defined as all finished goods and services produced in the region as a 
result of the SCORE Program. With additional federal funding, we 
believe Southern California can even unlock private investment in at 
least one of its key corridors over the course of the next decade.
                               Conclusion
    In my role as Chief Executive Officer, I am committed to delivering 
the transportation service of choice. Safety is our foundational value 
from which we will always build. With improved customer service and 
increased frequency and reliability, commuter rail will become an even 
more viable alternative to our nation's most congested roadways. The 
future for our region--and the health of its population--depend on an 
integrated transportation system that connects all modes across 
Southern California, especially all rail and transit modes in a 
seamless system to the customer. This transportation renaissance begins 
with commuter rail. We are modernizing our business practices and 
delivering services for future generations.
    To achieve the vision for improved commuter rail service across the 
country, we respectfully request that the following policies be 
considered:

    1.  Provide full eligibility to the CRISI Program for commuter rail 
as a qualified applicant;
    2.  Provide substantially more funding for critical railroad 
crossing and right-of-way improvements to deter trespassing and reduce 
railroad crossing incidents to keep people safe;
    3.  Include dedicated new funding for commuter rail in the surface 
transportation authorization bill that does not supplant existing 
funding sources.

    Chairman Lipinski, Ranking Member Crawford and Subcommittee 
Members, thank you for the opportunity to testify before you today. I 
look forward to working with you as we deliver on the vision of 
transformative commuter rail service across the nation.
    Mr. Lipinski. Thank you, Ms. Wiggins. Now I am going to 
recognize Members for 5 minutes of question time, and I am 
going to begin by recognizing Mr. Garcia for 5 minutes.
    Mr. Garcia?
    Mr. Garcia. Thank you, Mr. Chairman and Ranking Member 
Crawford, for hosting this hearing on the challenges our 
commuter rail systems are facing. I especially want to thank, 
of course, Mr. Jim Derwinski, CEO of Metra in Illinois, the 
largest commuter rail system in the U.S. That is no small job, 
and I am thankful that you could join us today. And I want to 
thank all the panelists, of course.
    Jim was so kind as to take 2 hours of his busy day this 
past March to personally give my staff and I a tour of a major 
metro locomotive rehabilitation facility. So I thank you for 
your leadership, Jim.
    My district hugs the Chicago downtown area. It serves as 
that sweet spot served by both the CTA train system and by the 
Metra system. In fact, there are at least five major commuter 
rail lines that run through my district, the Fourth 
Congressional District, about 15 Metra stations. The BNSF to 
Aurora, Union Pacific Northwest to McHenry, Milwaukee District 
North to Fox Lake, North Central Service to Antioch, and Union 
Pacific West to Elburn. These lines run through the communities 
of Cicero, Berwyn, Riverside, Brookfield, Berkeley, Melrose 
Park, Elmwood Park, and the Northwest Side of Chicago, 
including Logan Square and Humboldt Park, all of which I 
represent.
    As Chairman Lipinski and Metra CEO Jim Derwinski noted, 
commuter rail is an essential component of what makes Chicago 
run, by connecting people to jobs and taking cars off the 
congested roads.
    But Metra and our commuter rail systems face significant 
challenges. Ridership has gone up 23 percent since the year 
2000, yet, as I understand it, commuter rail systems continue 
to face significant restraints on growth, and continue to 
struggle with uncertain and inadequate funding streams. So I 
would like to ask some questions.
    Mr. Derwinski, we have challenges relating to affordable 
housing and urban sprawl in Chicago. Smart planning and 
transit-oriented development are vital to ensuring that we are 
building diverse, affordable, and inclusive communities, and 
that Metra plays a key role in connecting our communities to 
jobs and educational opportunities.
    So my question is how can Congress support Metra and 
commuter railroads in the upcoming FAST Act reauthorization, 
especially in regards to helping urban areas plan sustainable 
communities?
    Mr. Derwinski. Thank you for that question, Congressman.
    Clearly, as all of my colleagues have pointed out today, 
commuter rail plays an integral part of all communities that 
they serve. As Congress looks toward the reauthorization of the 
FAST Act, increased dedicated funding to commuter is exactly 
what is needed.
    I believe we can show, on a normal basis, that the return 
on investment is immense. Where we go, the community really 
grows. You talk about the transit-oriented developments, they 
are occurring all over the place, and a lot of them are 
occurring naturally. It is just building around the train 
station, and that is what people want to be able to do. They 
want to live where they want to live, but they know where they 
have to work. And the commuter is that one way to get there.
    As other colleagues talk about, congestion on the west 
coast is horrible, it is no different than in Chicago. It may 
just not last 24 hours. So I think increased funding is what we 
need.
    Mr. Garcia. And does a dedicated funding stream or expanded 
eligibility for existing discretionary grants have a role in 
the solution?
    Mr. Derwinski. Absolutely. We definitely need that type 
of--the competitive system right now doesn't really work for us 
because, as we have grown from 1 publicly funded commuter rail 
to now 32, there is such a big demand out there, and the 
competitive system doesn't work. We need some dedicated 
funding.
    Mr. Garcia. OK. Let's talk about safety, briefly. I know 
both commuter and freight have diligently worked to implement 
Positive Train Control, PTC, by the 2020 deadline. I share the 
views of my counterpart in the Senate, Ranking Member 
Duckworth, that PTC is not implemented until every stakeholder 
is fully implemented, interoperability being the key.
    On July 31st, a few weeks ago, you testified before the 
Senate about the ongoing financial and technological challenges 
of completing interoperability in major urban areas like 
Chicago. Can you comment on any ongoing challenges there have 
been with technology companies working on interoperability like 
Wabtec, and implementing the full PTC?
    Mr. Derwinski. Yes, I can. And I thank the Senate for 
inviting me to testify there. As I checked on PTC status even 
this week, I have heard--and I will use their terms--there is 
an army of people from Wabtec right now currently serving 
Chicago. So the message got through to Wabtec, they are 
certainly helping.
    But the challenges for interoperability are still in front 
of us. As we begin testing with all the 13 railroads, we are 
going to have to test within Chicago. It is time, and it is 
eventually sometimes those software patches. But currently, 
right now, Wabtec has increased their manpower in Chicago, and 
it is really trying to help us.
    Mr. Garcia. Thank you very much, Mr. Chairman. Thank you, I 
yield back.
    Mr. Lipinski. Thank you. I recognize Mr. Babin for 5 
minutes.
    Dr. Babin. Thank you, Mr. Chairman. And we appreciate the 
witnesses coming today. Thank you all for being here.
    A question for all of you. In the implementation process of 
the Positive Train Control mandate, have you experienced or do 
you see concerns with interoperability?
    We will go to you first, Mr. Skoutelas.
    Mr. Skoutelas. Sure, thank you. Yes, indeed. As we have had 
our many meetings and technical workshops over the past couple 
of years, there is no doubt that the complexity of installing 
Positive Train Control really comes down to the final stages, 
which means the interoperability between the railroads and how 
they operate their various systems. They need to be able to 
talk to one another. And that is where you are putting together 
different systems, different technologies, and protocols that 
need to be adapted.
    So it has been one of the challenges that our commuter rail 
agencies have faced. They are working through it. There is 
great progress being made, but there is no question it remains 
a challenge as they look to complete this by the 2020 deadline.
    Dr. Babin. Thank you very much. And Mr. Derwinski?
    Mr. Derwinski. Yes, in Chicago here Metra is not yet 
interoperable with any of its freight partners. However, next 
month, October, we will be testing with five of those 
railroads, and we have plans to finish up those five railroads 
by the end of the year, beginning to work with the other 
railroads in the beginning of the year.
    The good news is that the technologies that we are using 
and the software we are using were already developed and 
refined in L.A., and so we believe that there will just be some 
refinements in Chicago.
    Dr. Babin. OK, thank you. Mr. Rogoff?
    Mr. Rogoff. I would just add we at Sound Transit were up 
and running fully on PTC in October of 2018, ahead of the 2019 
deadline. But we had multiple railroads, obviously, as I said 
earlier, running on one main line, and not everyone was at the 
same level of development. So Amtrak was progressing on at one 
pace, BNSF and we and, for that matter, Tacoma Rail, was 
progressing on another.
    So I will say this. I think Administrator Batory at the FRA 
did a good job as we were approaching that deadline of 
convening all the commuter railroads and having us not suffer 
in silence as we were all trying to figure out these 
implementation challenges, but actually learning from each 
other on what the industrywide challenges were, and helping us 
work through those.
    But that is going to be one of the challenges, is when you 
put a mandate of multiple railroads sharing the same track, 
getting them all to progress at precisely the same pace, it 
just doesn't always come together.
    Dr. Babin. And then Ms. Wiggins, real quickly, if you don't 
mind.
    Ms. Wiggins. Yes. It was very complex and difficult, but 
interoperability was achieved, principally because our Class I 
partners, BNSF and UP, along with Amtrak and Coaster, we all 
got in a room together and figured it out.
    Dr. Babin. Excellent. Thank you. Many commuter agencies 
across the country now contract for services, including 
operations and maintenance. Certainly Amtrak is one competitor, 
but there are many others.
    And what are your thoughts on both your current experience 
working with contractors, and the future of competition between 
private providers in the commuter arena?
    Mr. Skoutelas?
    Mr. Skoutelas. Well, what we find in the commuter rail 
arena--but we also find it in other modes of transit, as well, 
particularly on the bus side, but even light rail--there is a 
mix.
    Certainly our agencies, I believe, are really looking at 
what makes the most sense for their local circumstances, the 
requirements that they have to operate. But we have seen with 
many of the new commuter rail lines that have opened up in the 
past decade, they are privately contracted by choice by the 
agencies. And I think that is the right approach. In every 
circumstance, not one solution or approach is going to be the 
correct one. It has to be adaptable to what makes sense, 
locally. And that is what we are seeing, really, in our 
experience, in looking at the agencies and how they are 
approaching this issue.
    Dr. Babin. And one more question for you, if you don't 
mind, sir. How would you balance the funding needs of our 
highway network with the needs of commuter agencies?
    Mr. Skoutelas. Well, we have a very robust and 
comprehensive authorization proposal that our association has 
been working on for the past 18 months. We think it is 
critically important that the issue of the Highway Trust Fund 
solvency be addressed. Obviously, the FAST Act expires at the 
end of September of next year.
    Dr. Babin. Right.
    Mr. Skoutelas. We have a detailed set of proposals that 
move forward with the highway mode, because we think it is 
important to address surface transportation together, not 
separately. And so our proposal moves in that fashion.
    We are part of a unified approach that our coalition 
partners, including AASHTO and ARTBA and the U.S. Chamber, all 
support, and that is, for our purposes, increasing the gasoline 
tax in the medium term. That would raise more money not only 
for highways, but for public transit, as well. And we have 
other proposals, as well, that go into the fine details of how 
we would accomplish that, and we would be happy to share that 
detail with this committee at any time.
    Dr. Babin. Right. And I have run out of time, Mr. Chairman, 
so I yield back. Thank you.
    Mr. Lipinski. Thank you. The Chair will now recognize Mrs. 
Napolitano for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chair, for holding this 
important meeting. And I welcome Ms. Stephanie Wiggins, the new 
CEO of Metrolink to testify, and I am glad to see you.
    It is a major transportation provider for residents and 
business in my district. It has two routes, San Bernardino-
Riverside, four stations, and I am very pleased the board 
appointed Ms. Wiggins last December as the new CEO. She has a 
long track record of effective transportation leadership in 
southern California, having worked three out of the five of the 
Metrolink member agencies, including San Bernardino County 
Transportation Authority, Riverside County Transportation 
Commission, and most recently deputy CEO at L.A. County Metro. 
We need more women in transportation, ma'am.
    I read your testimony with much interest, and you briefly 
discuss innovative technologies in grade crossing safety, and 
request that Congress and FRA support such programs. I am 
concerned with the suicides and pedestrian accidents on the 
railroad, and also the homeless situation in the area. Could 
you expand a little on that?
    Ms. Wiggins. Sure. One of the challenges of operating a 
system that covers over 500 route-miles is that we also have 
over 400 at-grade crossings in the network. And it is not just 
Metrolink operating, as I shared in my testimony. We have the 
freight railroads operating, Amtrak operating, so it is 300 
trains a day. And we are operating through communities. This 
issue of trespasser strikes and grade crossing conflicts is of 
deep concern to all of us in the industry. It was reiterated by 
FRA's report just last fall.
    While every area is unique, geographically, we have been 
challenged with homeless encampments in some of our rail right-
of-way that have contributed to trespasser strikes, and 
generally, I think all of us would attest to just pedestrian 
distraction. Right?
    So we are working, looking at innovative technologies, we 
are working with Operation Lifesaver. We are working with the 
vendor community to come up with different ways to help educate 
people to stay off the tracks, but also looking at engineering 
and law enforcement resources.
    Inevitably, though, it goes down to what the FRA report 
highlighted. There is not enough funding to address the needs. 
And we are just 456. I am sure my colleagues can talk about 
more, but we know that grade separations make a difference, and 
additional Federal funding would be needed.
    Mrs. Napolitano. Well, I know the quad gates were rather 
expensive, because I know several of my cities wanted to put 
them in, and they shuddered when they saw the price on them.
    The Operation Lifesaver, is it still volunteer?
    Ms. Wiggins. I am sorry, Congresswoman, I didn't hear the 
question.
    Mrs. Napolitano. Operation Lifesaver. The Operation 
Lifesaver, is it still a volunteer operation for employees?
    Ms. Wiggins. Yes, it is.
    Mrs. Napolitano. And is there any funding for that, so they 
can get more information out to the general public?
    Ms. Wiggins. We would appreciate and support additional 
funding for Operation Lifesaver. We were fortunate to just 
receive a grant, again, to help with education and outreach on 
railroads--crossing safety. But yes, Operation Lifesaver is a 
voluntary nonprofit organization that seeks to partner with 
railroads across the country for safety.
    Mrs. Napolitano. Well, those are very important things in 
my area. The other area that our region both benefits from and 
is burdened by is the private and public railroad sharing the 
same rail lines. What is the current state of your relationship 
with the freight railroads?
    Ms. Wiggins. We are fortunate in southern California to 
have a positive relationship with the freight railroads. Forty-
eight percent of our network is made possible because we share 
the corridor with the Class I railroads.
    While just as with any family, there can be challenges at 
times, the opportunities are we are able to add more frequency 
of service, we are able to, when our goals align, advocate for 
additional funding, both at the State level and the local 
level.
    Mrs. Napolitano. Well, you have increased ridership. Will 
that interfere with the railroads doing their job?
    Ms. Wiggins. I think the challenge is that we are all 
trying to grow. But I am fortunate that our railroad partners, 
particularly, right now, BNSF and Metrolink, are talking about 
how we can jointly grow and not conflict with each other. 
Fundamentally, that means identifying the capital projects that 
are needed and the Federal funding that is needed to help 
support them.
    Mrs. Napolitano. Well, congratulations on getting the work 
done on the Positive Train Control. That is very important. I 
think we did an extension. I don't think we are going to do 
another one.
    Thank you very much, Mr. Chair.
    Ms. Wiggins. Thank you.
    Mr. Lipinski. The Chair will now recognize Mr. Weber for 5 
minutes.
    Mr. Weber. Is that all? Thank you, Mr. Chair.
    I came in a little late, so I missed some of the first part 
of your presentation. But I do have some questions. I want to 
follow up on Brian Babin's question about working with freight 
trains.
    I think, Mr. Rogoff, you answered it, but I don't think 
everybody else answered that. Or did I miss that?
    Let's start with you, Mr. Skoutelas. Are you all seeing a 
lot of cooperation between the freight and the passenger 
trains?
    Mr. Skoutelas. We are. We are seeing a great deal of 
cooperation. Let's understand that, obviously, they are 
competing interests. On the one hand, the freights need to move 
goods and make their revenue targets and such. Our railroads 
need to move passengers. And therein lies the challenge that we 
have.
    But I think, if you heard from my colleagues here, there is 
a great deal of cooperation that goes on day-to-day to make 
sure that we are doing the very best from the passenger 
railroad side to be able to get the time that we need and the 
trackage to operate the service.
    Certainly in the best of ideal worlds, I think everybody 
here would probably say, ``If I had my own dedicated right-of-
way, my own track, we would be better off.'' But that is not--
--
    Mr. Weber. How about a two-way highway? Would that be 
better? Two tracks on the same path, you know, where you had, 
like, cars. We had one going this way, and one coming back. 
That would require an expanded right-of-way, obviously. But, 
boy, that would be ideal, wouldn't it?
    Mr. Skoutelas. Sure, in some instances that might be 
possible, given the right-of-way and others. It is not, because 
of the limitations of geometry and the land that you have 
available to it.
    But I think, again, our experiences in working very closely 
with our commuter rail agencies, is they do an incredible job 
of balancing those needs and making sure that they are doing 
their very, very best they can to deliver----
    Mr. Weber. Thank you. I am going to jump down to Ms. 
Wiggins. I am going to go out of turn here.
    I was fascinated. You said that southern California is 
notorious for soul-crushing traffic. Is that what you said?
    Ms. Wiggins. Yes, sir.
    Mr. Weber. Not soul-crashing, but soul-crushing traffic?
    Ms. Wiggins. That is correct.
    Mr. Weber. OK, 456 at-grade crossings in the network. Is 
your only partner--you said you have been partners--41 percent 
of the railroad is shared, and then you mentioned BNSF. Is that 
the only rail line that is there?
    Ms. Wiggins. No. Thank you for allowing me to clarify. It 
is BNSF, but also Union Pacific Railroad.
    Mr. Weber. Just those two?
    Ms. Wiggins. Yes, those two.
    Mr. Weber. Do you know what percentage of those?
    Ms. Wiggins. Not offhand, but I can get you the 
information.
    Mr. Weber. OK. I am getting--my expert over here is saying 
major percentage.
    [Laughter.]
    Mr. Weber. So thank you for that, Mrs. Napolitano.
    Mr. Derwinski--is that how you say that?
    Mr. Derwinski. Yes, sir.
    Mr. Weber. You said you didn't have a lot of freight 
interoperability, if I remember your comments. Is that correct?
    Mr. Derwinski. Oh, as far as the PTC interoperability.
    Mr. Weber. Right.
    Mr. Derwinski. We are working with the freights right now 
to start that process next month.
    Mr. Weber. Do you have a date?
    Mr. Derwinski. Next month we intend to start five of the 
railroads that we are going to be interoperable with, and be 
finished with that interoperability testing by the end of this 
year.
    Mr. Weber. By the end of--the testing by the end of this 
year, but how about operability?
    Mr. Derwinski. Well, and then that--after you finish the 
testing, then you are certified interoperable. Yes.
    Mr. Weber. OK. All right. Well, thank you for that.
    Let me go to Ms.--stay with you for a minute, Mr. 
Derwinski. You referenced the 2016 GAO report on Amtrak's 
implementation of PRIIA. Have you noticed an improvement in 
that accounting transparency since enactment of the FAST Act?
    Mr. Derwinski. Not really. We have been, obviously, working 
with Amtrak on negotiations at Chicago Union Station, and 
transparency has been one of the key topics. We just want to do 
for the Illinois taxpayers the right thing, and it is just 
making sure we are paying the bills we should pay.
    Mr. Weber. Well, you have the camera and the microphone 
right now. So what recommendations do you have to improve 
Amtrak's accounting?
    Mr. Derwinski. Well, I would say, once again, the GAO 
report had recommendations. I would ask this committee to help 
Amtrak enforce those recommendations for transparency.
    Mr. Weber. None that you care to highlight?
    Mr. Derwinski. Specifically, just once again----
    Mr. Weber. Just what is in the report? OK.
    Mr. Derwinski. Sir, I think the big thing is, when we talk 
with Amtrak, there are line items that have a lot of vagueness 
in it. And then, when you question into those line items 
without getting very specific, you find out maybe there are 
bills from other parts of the country.
    Mr. Weber. OK, fair enough. I want to jump over to Mr. 
Rogoff now, if I may.
    Given your experience in the administration, both at FTA 
and OST, can you explain the benefits of streamlining project 
delivery? What are some of the areas you would recommend for 
further streamlining?
    Mr. Rogoff. Well, I thank you for the question. I have, 
like I said, 10 specific recommendations in my testimony.
    But I think, as a transit provider, one of the frustrations 
we have is our expanded service, by definition, is 
environmentally beneficial. So it can be a frustration when the 
``environmental process'' is the thing that slows us down, and 
I think it is--it would be worth----
    Mr. Weber. It is kind of an antithesis, isn't it?
    Mr. Rogoff. A little bit. But, you know, part of that is 
just about consulting with communities, and we want to consult 
fully with communities.
    But there are some things, you know, that we are putting in 
there. We have got two different requirements, for example, on 
how we comply with looking out for historic preservation, one 
under section 106, one under 4(f). Surely those can be 
harmonized.
    I think one of the important things I noted in my testimony 
is there seems to be a drive in Congress to get agencies to act 
more quickly on environmental permits, and we agree with that. 
At the same time, the staff ranks of those agencies have been 
allowed to diminish. And I am not sure it is reasonable to 
think that we can get faster action out of agencies--I used to 
head one of these agencies--and still expect them to be able to 
do it with smaller and smaller staffs.
    So I think there really should be some ground-up looking at 
do they have the staffing complement they need to engage with 
us early, and issue permits early.
    Mr. Weber. OK, thank you for that. I am out of time.
    I appreciate you, Mr. Chairman. I yield back.
    Mr. Lipinski. Thank you. I will now recognize myself. I am 
recognizing myself for 10 minutes to start a second round, the 
second 5 minutes. So if I can do that, I will do that. Or else 
we will see what the transcript says. I wanted to make sure my 
colleagues had a chance to ask questions, and a lot of good 
questions there.
    I sort of feel like I have--I go through this a lot, and I 
have gone through this with Mr. Derwinski and others at Metra. 
I talked about the BNSF line that I will take when I am going 
into downtown Chicago. Here are a few of the things that have 
happened in the last couple of years that have caused major 
disruptions: a train derailed coming out of the yard, blocking 
multiple tracks at Union Station; a computer problem, which we 
won't get into, that Amtrak--mistake caused, that shut down all 
signals for 3 rush hours; a freight train dragging utility 
poles across the tracks, and blocking the tracks.
    That is just a few of the things that have caused major 
disruptions. There is falling concrete at Chicago Union Station 
that causes issues. There are a lot of problems out there. And 
I think there is a lot more help that some of us--we can help 
with here in providing more funding for commuter rail. Commuter 
rail is certainly--it is growing very, very fast, and I think 
more than other forms of public transportation. Though I think 
we need to support all of it more.
    But I want to start out by asking--we have talked a little 
bit about Amtrak here. And this is not an easy question, but I 
am going to throw it out there. So what can--what would you 
like to see Congress do when it comes to your ability to deal 
with Amtrak?
    Mr. Derwinski, you started talking about some of the issues 
that you are having with Chicago Union Station. There are other 
issues with Amtrak. There is the Heritage Corridor line that 
Metra has that only has seven trains total during the day. The 
demand is great. I have tried to get tickets between Metra and 
Amtrak so that it provides a little more service locally, but 
that has not been worked out.
    So let me start with you, Mr. Derwinski. What would you 
like Congress to do that would help you in your negotiations 
and your work with Amtrak?
    Mr. Derwinski. Well, specifically, sir, on the Chicago 
Union Station, right now we are in the STB with Amtrak, trying 
to work out an access agreement. But it has been a struggle. We 
are 89 percent of the train movements in Union Station, yet we 
have really no say at the table. So it has been--nothing is for 
sale, per Amtrak. We understand that. What we are looking for 
is a partnership where there is--the responsible parties can 
actually meet each other at a table on a normal basis, and try 
to work out problems.
    Now, I want to say very clearly, on a day-to-day basis the 
local people on the ground do deal with all these problems that 
you discussed. Some of those problems were major, they really 
affected tens of thousands of people. And there are minor 
problems that happen on a normal basis. And the local people, 
Metra, Amtrak, BNSF, they are all working together to make that 
stuff happen.
    As far as the growth goes--and the Heritage Corridor line 
that you brought up--the real problem with the Heritage 
Corridor line is Metra can't really provide extra service out 
there because of the six freight tracks we have to cross at 
grade. It is just the infrastructure of the system right now.
    Once again, create projects that would actually start 
elevating one railroad over another railroad, and start 
creating these super-highways for passenger trains is really 
what needs to start being looked at within----
    Mr. Lipinski. All right, we will get more to that. I want 
to see if anyone else has anything to say about Amtrak.
    Mr. Rogoff?
    Mr. Rogoff. I think it is important to note that, you know, 
both Mr. Derwinski and I, if--we have very similar on-time 
performance levels. When things work well, they work very, very 
well. But when they work poorly--as in the instances that you 
pointed out, Mr. Chairman--things go really badly really 
quickly, and a lot of commuters are delayed.
    One of the things that goes wrong is when Amtrak isn't 
running on time. Amtrak being an interstate operator, when 
they, for example, send Coast Starlight trains into the State 
of Washington, they may already be hours late, having left 
California and Oregon.
    Getting Amtrak to run on time helps us run on time. Also, 
if they arrive late, BNSF has to, through its dispatching 
method, still get them through the system. And that not only 
clogs up BNSF's movements, they clog up our passenger 
movements.
    There has been a serious deterioration of on-time 
performance of Amtrak trains. And I think the committee should 
well look at that, in terms--and see if their priority that has 
been granted them in the law for operating over freight right-
of-way is really being honored. Anything that would help them 
move a bit more on time would help the rest of us that share 
the track.
    Mr. Lipinski. And Ms. Wiggins, could you tell us--anything 
to add?  You don't need to, but--OK.
    I will--did you have something, Ms. Wiggins?
    Ms. Wiggins. No, I----
    Mr. Lipinski. OK. I want to be clear. I want Amtrak to work 
well. I am fully supportive of Amtrak and Amtrak's service. But 
I think there are some issues here that, obviously, have been 
mentioned.
    I want to move on to working with the freight railroads. 
Again, I am looking for anything that anyone would recommend 
that they would like to see Congress do when it comes to 
commuter railroads' ability to work with the freight railroads. 
Does anyone have any suggestions on that?
    Mr. Derwinski. I will take that first. As I said earlier, 
when I was talking about the Heritage, that is one of the 
nature--the problems with Chicago. All the freight trains that 
we have to work with--700 freight trains a day with 700 
passenger trains a day on the same network, when they cross at 
grade, when--it is like a stop sign. It is not a stop light, it 
is a stop sign. And when the fast car goes through, the 
passenger train 20 feet long, it has to then wait sometimes for 
up to almost a 2\1/2\-mile freight train.
    So separating these two elements inside this tight urban 
network is challenging. Adding extra lanes of traffic isn't 
always an option, just because land isn't available. So, 
really, it is about separating these things.
    Eventually, it is also about how the trains integrate with 
each other. As Mr. Rogoff pointed out, that sometimes happens 
all the--I mean it actually happens all the time. A freight 
train is out of pocket, a passenger train is out of pocket, and 
that throws off these heavy, dense rush hours.
    Now, for the most part, freights work with us inside our 
rush hours, and that is where, obviously, the domino effect can 
really, really hinder us.
    Mr. Lipinski. Did you want to talk at all about issues in 
Lake County?
    Mr. Derwinski. In Lake County we are stagnated on growth 
right now. We just had recently an opportunity to look at a 
reverse commute market. It is up and running, but our ability 
right now to add an extra train was basically a no. The current 
infrastructure right now, the owner says no. So we did have, 
basically, a little bit of a frustration there, where we are 
trying to grow the system, we are trying to take care of our 
operating needs, but we are hindered on that.
    Mr. Lipinski. All right.
    Mr. Rogoff?
    Mr. Rogoff. Well, I would just say, all of our 
conversations with BNSF are always collaborative, cooperative, 
but also expensive ones. And I say that they are expensive 
because when we want to introduce additional frequencies to 
meet passenger demand, the test for BNSF is what infrastructure 
investments will we make, the general taxpayer, to their 
railroad to help eliminate the likelihood that our trains are 
going to intersect. And that is to make sure that freight 
movements can serve the ports, and also serve us.
    I think Congress can take a position that recognizes that a 
robust and functional freight network is inherently beneficial, 
even though they are privately held, especially if we are 
talking about climate change, especially if we are talking 
about decongestion, and what we can do to keep both trucks 
moving on the highway, but freight moving across the country.
    At this current juncture, it is all on us, Sound Transit, 
to make the investments to deconflict our commuter trains with 
the freight trains. We could get Federal grants for that, but I 
also believe that there may be a way of getting into the 
funding mix, a conversation of how we can make our freight 
network more hospitable to all, both them and us.
    Mr. Lipinski. Thank you. Any other comments on that one?
    I will then move on--I just started 10 minutes, correct? 
All right, I just wanted to make sure. I have been going that 
long.
    I just--I ask those questions--those are more difficult 
questions, because I think we have covered a lot of the 
important issues here. The cost of PTC--and we need to have 
PTC. You know, the mandate is in place, we are going to hold 
everyone to that. But I think you have all made clear how much 
that is going to cost, and that comes at the expense of other 
capital projects.
    Mr. Skoutelas had talked about $1 billion for PTC, I 
believe, over 6 years, $1.5 billion for grade crossing safety. 
And CRISI, in addition to section 130, I think that is also 
critical grade crossing safety.
    I would probably go for--we want more than that. I think 
there are things--grade separations can be very expensive, but 
those are really the most safe ways to go, in general, 
increasing the amount that we give for public transit.
    But I think it is important in this hearing that--like I 
say, I wanted to have this hearing because it has been a decade 
since we had a hearing solely on commuter rail. And it is 
becoming more and more important in so many communities across 
the country. And I think it is important that this community, 
this subcommittee, focus on what can be done for commuter rail 
for all the reasons that you have talked about here.
    So I appreciate very much all of your testimony, and I 
think I owe it to--I am going to yield back, and I am going to 
owe it to Mr. Weber, if--I will give you 5 minutes if you want 
to ask any more questions.
    All right. So thank you, Mr. Weber. I want to thank all of 
our witnesses--as I go and look for my script, so I say all the 
right things here at the end that I need to say.
    Mr. Weber. Do you want me to take those 5 minutes?
    Mr. Lipinski. No, that is all right.
    [Laughter.]
    Mr. Lipinski. I want to thank all of our witnesses for your 
testimony, as I said. This is an issue that I have spent many 
hours going through, issues with commuter rail in the Chicago 
area. And I not only ride it, I hear from my constituents about 
it often every time there is an issue. I hear from members of 
my family when there are issues.
    But I think it is critically important, especially as we 
are looking at what are we going to do to get cars off the 
road. Southern California, talked about the congestion there, 
but I will give you Chicago's congestion--put it up against 
that any day.
    And critical also for our environment, I think. And I think 
we really need in this reauthorization of the FAST Act to 
seriously not just consider, but put the money up for commuter 
rail.
    So I am going to ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
can provide answers to any questions that may be submitted to 
them in writing.
    And I ask unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without any objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 5:12 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Lipinski and Ranking Member Crawford, for 
calling today's hearing to examine the challenges and opportunities 
facing commuter railroads.
    For many people across the country, commuter rail networks serve as 
a vital link between their home and their place of employment. For 
others, they help enable connections across communities to shop, dine, 
and enhance citizens' quality of life. All told, according to the most 
recent data available, it was estimated that more than 500 million 
passenger trips occur annually on commuter rail networks.
    It is important that we recognize the Federal partnership that 
exists to allow these commuter rail networks to flourish. According to 
FTA data, commuter rail has the lowest cost per passenger mile across 
the rail system. This allows commuter rail agencies to make smart 
decisions by investing in communities, enabling economic growth, and 
connecting people with new opportunities.
    Of course, the benefits of commuter rail extend beyond the 
passengers who take it. By serving as an alternative to driving, these 
systems help to take cars off our congested roadways, which reduces 
travel times and helps keep pollutants out of the air. If we are to 
tackle the catastrophic consequences of climate change, the benefits of 
transitioning commuters from the roadways into more environmentally-
conscious ways of transportation must be considered.
    The commuter rail agencies that we have here today show how diverse 
these systems are across the county. As of 2017, there were 29 commuter 
rail systems operating in the United States, helping to bring 
connections to communities across the country. While many experience 
similar challenges, the uniqueness of each system operator's geography 
and communities is different. Risks may be different, including the 
risks posed by the destruction of our environment, in Illinois and 
Southern California.
    Many of my constituents have come to rely on the Tri-Met system, 
and enabling that system to succeed, in the face of climate risks, is 
important to me.
    So, with the reauthorization of the commuter rail program on the 
horizon, today we want to hear from our witnesses what their needs are 
and how the Federal government can continue this partnership. Investing 
in commuter rail systems is a good use of Federal dollars, as the 
returns help to provide opportunity, convenience, and growth to our 
communities.

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    Thank you, Chairman Lipinski, for holding this hearing. I 
appreciate our panel of witnesses being here.
    Today, we are going to learn about some of the challenges and 
opportunities faced by our nation's commuter railroads.
    Commuter rail service is primarily designed to address a high 
volume of passengers requiring daily travel to and from work in city 
centers, operating in metropolitan and suburban areas and usually 
having morning and evening peak period operations.
    Commuter rail systems can be a cost-effective transportation 
alternative for longer commutes to downtown from outlying suburbs.
    While we have a number of agencies that operate their own services, 
others contract with Amtrak or private sector companies to do so. These 
private sector providers have helped lower costs, improve services, and 
increase ridership.
    I'm sure there are best practices to be learned from those 
agencies.
    As this Committee prepares to reauthorize surface transportation 
programs, I look forward to hearing about the challenges and 
opportunities ahead for commuter railroads, as well as best practices 
to improve service, realize efficiencies, and increase fare revenue.
    Thank you again to our Chairman and witnesses, and with that I 
yield back.

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Mr. Chairman.
    It is with great appreciation that I thank the Chairman for holding 
this hearing today, as it allows us to hear from a transportation 
association as well as commuter railroads about their challenges they 
face and any opportunities that can be addressed through legislation.
    For more than 25 years in representing Dallas, I have worked 
alongside local leaders in many communities to develop new and improve 
existing transportation systems that benefit people all across Texas.
    My state of Texas has faced large population growth in the past 
decade. Regional commuter railroads give riders an alternative 
transportation option to driving on roads and increasing congestion. We 
need to continue to find alternative transportation options.
    In my district, we have a commuter railroad called the Trinity 
Railway Express that connects riders from downtown Dallas to downtown 
Fort Worth.
    In 2018, The Federal Railroad Administration (FRA) awarded the 
Trinity Railway Express a $9.5 million grant to assist implementing a 
positive train control (PTC) back office system, interoperability 
testing and training for workers.
    The fact that only one Federally-certified company had developed 
the PTC technology and employee training was a challenge Trinity 
Railway Express overcame, in meeting the December 2018 deadline.
    It is imperative the multiple trains sharing the same railroad 
track be able to communicate with each other to avoid collisions, which 
is part of the PTC technology.
    I look forward to hearing the testimony from the witnesses about 
the progress of interoperability among multiple passenger and freight 
railroad operators that share the same track.
    I am interested to learn when we should expect PTC to be fully 
implemented, and what challenges, if any, exist to full implementation.
    Thank you. I yield back.

                                 <F-dash>
  Statement of Ray B. Chambers, President, Association of Independent 
  Passenger Rail Operators (AIPRO), Submitted for the Record by Hon. 
                            Peter A. DeFazio
    AIPRO appreciates the opportunity to present its views on commuter 
rail priorities for the future. This is the first such hearing in many 
years and it is important. Despite the acrimony and partisan 
polarization taking place in American politics and Congress today, it 
is clear from the opening statements and testimony submitted that this 
Subcommittee is launching a true bipartisan effort to enact sound 
transportation legislation that includes passenger rail. Passenger rail 
is the forgotten mode in American transportation. This Subcommittee may 
the very best team in Congress to advance passenger rail in general. We 
advocate you vigorously pursue the issue with an intense focus on 
Commuter and State Supported Intercity Rail Priorities.
    Our members are Herzog, First Transit, Keolis, and Transdev. The 
Brotherhood of Maintenance of Way/Teamsters is an Associate Member. 
AIPRO companies carry surface passengers on everything from traditional 
bus and ADA paratransit, to autonomous vans to streetcar to commuter 
rail to intercity passenger. They also build and maintain track, 
dispatch commuter trains and provide all manner of rail services. These 
companies are a major player in American commuter rail running two 
hundred-fifty thousand trains each year.\1\ This commuter model that 
has developed rapidly over the last two decades embraces competition 
between providers assuring the best service at the lowest cost. We 
submit this developing commuter model is the prototype for the 
passenger rail future of America.
---------------------------------------------------------------------------
    \1\ Rail Passenger service today--Commuter rail systems deliver 
about 490 million passenger trips a year. The AIPRO companies (1st, 
Herzog, Keolis, Transdev), Amtrak and Bombardier are among the rivals 
who compete for these operations. The AIPRO members provide 80 million 
of those trips. Amtrak serves approximately 32 million passengers in 
its intercity service.
---------------------------------------------------------------------------
    The national hodge-podge of passenger service today is an 
embarrassment by international standards. It grows out of a complex 
150-year legacy that has been undermined by highway and air policy and 
underfunded in modern times. Rail has become an afterthought in federal 
transportation investment. Population growth, carbon emissions and 
urban congestion cry out for significant change. AIPRO will soon 
propose a comprehensive Rail Title for the reauthorization of the FAST 
Act. It will make recommendations regarding commuter rail. This 
document will be circulated to all key stakeholders including host 
railroads, labor, the Secretary, FTA, FRA and key committees in 
Congress. It will call for robust sustainable federal investment that 
encourages private participation, increased competition for providers 
of corridor passenger rail service and reform of liability exposure. 
Specifically, we will suggest:
    The Future of Passenger Rail Funding--We are in accord with the 
funding recommendations of APTA, the Rail Passenger Association and the 
Commuter Rail Coalition. In our view there should be a dedicated 
formula funding stream for both commuter and state supported (regional) 
intercity passenger operations. We will make a specific proposal for an 
INFRA Passenger fund (as there is now an INFRA freight fund) that will 
be available to commuter and state authorities for the regional 
intercity service they support. Every state will be eligible for 
planning and rail investment funding.\2\ It will include Pilot Projects 
to demonstrate ways of expanding passenger service through public and 
private cooperation and best practices for managed competition by 
states and commuter agencies. The Pilot Projects will also seek to 
create ``best bid'' practices in the competitive process. They will 
provide new data from both private operators and Amtrak for creating 
greater transparency in passenger costing. This will establish a 
baseline for understanding passenger rail costs. We will also propose 
new mechanisms for value capture transportation-oriented development 
(TOD) based on legislation introduced in a previous Congress by Dan 
Lipinski and Tom Petri. We believe this new approach to TOD will 
attract a growing ridership with pulsating lifestyle opportunity within 
these regions.
---------------------------------------------------------------------------
    \2\ Economic Corridors Comment--The Cascade Corridor between 
Portland, Seattle and Vancouver is an advanced in planning. But there 
are many others--and they need to be defined. States like Hawaii, that 
have no intercity passenger rail, will receive funding for commuter 
operations.
---------------------------------------------------------------------------
    Liability Reform--Liability exposure is a significant barrier to 
passenger rail expansion and continuously chills projects. We believe 
the USDOT should play a stronger role in confronting this complex 
arena. We are pleased that the FTA and FRA have initiated an informal 
dialogue chaired by the Deputy FRA Administrator and FTA counsel. In 
the coming weeks we will be recommending specific reforms into this 
forum and the Congress. We believe there should be a framework for 
pooling arrangements that would give all passenger service providers 
across the board national coverage. We will also suggest catastrophic 
protection for passengers and operators such as exists in the nuclear 
field.\3\
---------------------------------------------------------------------------
    \3\ Price-Anderson Nuclear Industries Indemnity Act
---------------------------------------------------------------------------
    Constrained commuter growth--access to Amtrak facilities--In 
addition to the Northeast Corridor, Amtrak owns scattered track, 
stations and other facilities across the country that are often not 
central to their core operation. Commuter operations depend on access 
to this Amtrak infrastructure. In fact, commuter agencies often use 50% 
to 70% of the passenger capacity on Amtrak owned infrastructure. Amtrak 
treats that infrastructure as private property to extract maximum 
revenue from public authorities and others. Amtrak accounting is 
opaque.\4\ This makes it hard for the commuter agencies to quickly 
close deals in a transparent way.
---------------------------------------------------------------------------
    \4\ Amtrak Accounting--A GAO review of Amtrak practices is damning. 
It points to significant weaknesses and deficiencies that cloud 
transparency that cloud negotiations in a fog. US Government 
Accountability Office, (Publication No. GAO-16-67), January 2016.
---------------------------------------------------------------------------
    AIPRO suggests a zero-based review of those assets. They were 
largely acquired by US taxpayers and should be reorganized for maximum 
benefit to all public users. We believe the commuter and state 
authorities should have fair and equal access to these facilities, and 
we will be putting forward specific suggestions and legislative 
proposals. Right now, there are a number of ideas on the table. They 
range from better access to the Surface Transportation Board for quick 
dispute resolution; to new authority for the Secretary of 
Transportation to settle disputes; transfer of shared assets to the 
Secretary who will create a new DOT entity that will manage the assets 
and make them available to public users on a fair and reasonable basis. 
We ask the House Railroad Subcommittee leadership, in the words of 
METRA Chair Jim Derwinski, to pursue ``mechanisms that level the 
playing field between Amtrak and publicly-owned commuter rail 
agencies.'' \5\
---------------------------------------------------------------------------
    \5\ Testimony of Jim Derwinski, CEO Chicago Metra, House Railroad 
Subcommittee, September 24, 2019, p5.
---------------------------------------------------------------------------
    Increase private operations through competition--The commuter 
agencies that now select service providers through competition provide 
the model for the future of both urban and state supported regional 
passenger rail service. One state, Connecticut, has already applied 
this to an intercity corridor. We believe the Administration should 
advance the competitive agenda in a vigorous fashion. Both PRIIA and 
the FAST Act encourage competition and AIPRO will be putting forward 
specific legislative proposals that will promote the competition model 
through pilot projects and federal finance requirements.
    Harmonize the Federal approach to urban and intercity passenger 
rail--It is a fact that the growth of commuter and state supported 
intercity is a bright spot. Northeast corridor and long-distance train 
ridership are essentially flat. The reality is commuter operations and 
intercity state supported passenger corridors operate under separate 
authority but the two are much the same in terms of service offered. On 
both riderships is also growing. All of these urban and intercity 
corridors get people from point to point in a matter of hours. These 
trains often carry the same passengers. Further passengers could care 
less whether they are on an intercity or commuter operation. The trains 
run over the same track and use similar equipment. Passengers don't 
care whether they are on a commuter or a state supported intercity 
regional train. Safety and funding are primary concerns of both. The 
two have multiple common concerns including a shortage of passenger 
equipment. The two, both commuter and state supported intercity, are 
the best hope for the future. The term Commuter Rail itself may suggest 
limitations--these trains do far more than carry commuters just as the 
state supported intercity trains do carry commuters.
    We should seek better solutions that create consistency between 
commuter and state supported intercity. For example, as short distance 
intercity passenger service expands, specific commuter authorities may 
have the staff and resources to best manage state supported intercity 
corridors through such mechanisms as Joint Powers Authorities.\6\
---------------------------------------------------------------------------
    \6\ Joint Powers Authorities--California provides an excellent 
model for coordinating oversight of both commuter operations and state 
supported intercity routes through the creation of Joint Powers 
Authorities with sufficient resources and professional staff.
---------------------------------------------------------------------------
    Again, commuter trains should dovetail with the state supported 
intercity passenger operations. The relations between them should be 
harmonized to the best overall advantage of the railroad passenger. In 
both cases expanding private sector participation through competition 
should be a paramount goal.
    A New Rail Title for the FAST Act Reauthorization--In the final 
analysis we would urge the Subcommittee to play a key role in producing 
a New Rail Title that will create a National Urban and Intercity 
Passenger Network of which we can be proud. There must be a cooperative 
partnership to provide oversight in reorienting our passenger system. 
USDOT \7\, urban Commuter Authorities, States (intercity shorter 
corridors), along with an array of public and private stakeholders will 
be at the heart of transforming our fractured rail service into 
something better.\8\ The goal will be high performance service.\9\ 
There should be new emphasis on inclusion of private service providers 
and commercial finance. The goal will be a National Corridor Network 
providing superior rail service that is highway competitive.
---------------------------------------------------------------------------
    \7\ USDOT--The USDOT functions need to be reviewed and further 
rationalized to produce maximum passenger service. FRA and FTA together 
have major responsibility for commuter rail and FRA for state supported 
intercity service. We will propose FRA play a stronger role in 
strengthening our long-distance network which consists of 15 corridors. 
As rationalization takes place the traditional labor arrangements on 
intercity service must be preserved and agreements with host railroads 
must be through commercial negotiation not compulsion.
    \8\ Not a New Idea--This concept for oversight in the restructuring 
of the US passenger rail system is not particularly new. The Amtrak 
Reform Council, created by Act of Congress, made excellent 
recommendations for reform in 2002. A former US Under Secretary of 
Transportation recently called for a national passenger system ``made 
up of strong regional networks . . . (which would be composed of) 
federal and state partnerships (that could make decisions) whether 
actual services would be outsourced to private companies.'' Quotes 
taken from remarks of Emil Frankel, Passenger and Freight RRs Unite 
Conference, Washington, D.C., March 14, 2019.
    \9\ High Speed Rail (HSR) Comment--America is not Europe or Asia so 
the path forward over mostly private rights of way will be unique. High 
Performance Rail, not HSR, is the principal objective. However, there 
will be HSR corridors within the national network.
---------------------------------------------------------------------------
    A New Rail Title can transform the transportation paradigm so as to 
reduce the nation's congestion and carbon footprint while binding area 
economies. This proposed new rail program is not aspirational; it is 
the practical next step. Further, it must be bipartisan. We look 
forward to working with you on this agenda.

                                 <F-dash>
Letter of September 23, 2019, from Jerry Boles, President, Brotherhood 
 of Railroad Signalmen, et al., Submitted for the Record by Hon. Peter 
                               A. DeFazio
                                                September 23, 2019.
Hon. Daniel Lipinski,
Chairman,
Subcommittee on Railroads, Pipelines, and Hazardous Materials, House 
        Transportation and Infrastructure Committee, Rayburn House 
        Office Building, Washington, DC.

RE: September 24, 2019 Hearing on Challenges and Opportunities for 
Commuter Railroads

    Dear Chairman Lipinski:
    The Brotherhood of Maintenance of Way Employes Division-IBT 
(BMWED); Brotherhood of Railroad Signalmen (BRS); and International 
Association of Sheet Metal, Air, Rail, and Transportation Workers-
Mechanical Division (SMART-MD) represent Maintenance of Way Employes, 
Signalmen, and Sheet Metal Workers on the freight railroads, Amtrak and 
all major commuter railroads. The organizations support improvement and 
expansion of commuter rail transportation, but the organizations are 
concerned about the adverse impact of Federal capital spending in 
support of commuter rail service on railroad workers. The organizations 
also oppose efforts by some entities to provide commuter rail service, 
acquire portions of the interstate rail system for commuter rail 
service, and/or to transition from commuter rail service to intercity 
passenger rail service without application of Federal railroad labor 
and employment laws such as the Railway Labor Act, Railroad Retirement 
Act, and Railroad Unemployment Insurance Act to the employees who 
perform traditional core railroad work.
    The nation's large commuter rail systems, and certainly all 
interstate commuter rail systems, are covered by the federal railroad 
labor and employment laws, whether service is provided by government 
agencies or private operators. Intercity passenger rail service 
provided by Amtrak, as well as intra-state intercity service that is 
part of the general system of railroad transportation, whether provided 
by government agencies or private entities, are covered the Federal 
railroad labor and employment laws. Coverage under these laws has 
enabled railroad workers to achieve and maintain decent wages, 
benefits, and working conditions; permitted rail service providers to 
recruit and retain skilled workers for core traditional railroad 
functions and minimized disruptions of service due to disputes between 
employers and employees. However, certain proposals and plans, that 
require Federal involvement and funding have the potential to both 
undercut the wages, benefits and working conditions of railroad 
workers, and upset the labor relations stability provided by these 
laws.
use of federal grants to create or expand commuter rail service, impact 
of such grants on rail workers, and application of employee protections 
                        to affected rail workers
    Many plans for creation or expansion of commuter rail service 
depend on Federal grants. Some states and state agencies have utilized 
hundreds of millions of dollars Federal Transit Act grants to acquire 
railroad lines that are part of the general interstate system of 
railroad transportation for commuter service, with the lines still used 
by the vendor railroads for interstate freight service. While the 
grants are subject to employee protections under 49 U.S.C. 
Sec. 5333(b), those protections do not apply to employees of freight 
railroads who do not already perform work in support of commuter rail 
service. So, freight employees who worked on the acquired lines (which, 
again, would still be used for interstate freight service) have been 
treated as ineligible for the protections. There is no reason for 
exclusion of the workers who will be most directly affected by a line 
sale from the protections imposed in connection with Federal funding 
for that line sale. There are also those who advocate blending or 
cross-utilization of funding so an FTA transit grant could be used to 
build or upgrade railroad lines; an FRA rail grant could be used to add 
a second track or sidings for a rail line that might be used for a 
combination of freight, intercity passenger and commuter service; or an 
FTA grant could be used to build an intermodal facility that is used by 
buses, commuter trains, and intercity passenger rail. There can 
certainly be practical reasons for increased flexibility in the use of 
grants denominated for use for specific modes of transportation; but 
any employee who is adversely affected by a grant should be covered by 
employee protections attached to the grant, not just those who work in 
the mode of transportation for which the specific funding mechanism was 
designed.
 use of federal grants to convert commuter rail systems into intercity 
                         passenger rail systems
    Another concern is the potential for the use of Federal grants to 
extend commuter rail operations, so they effectively become intercity 
passenger rail operations. Various parties seek to extend intra-state 
commuter rail transportation that operates on the interstate general 
rail system lines well beyond the range of local commuting areas, to 
effectively become intercity passenger rail service. Certain states 
seek to use Federal grants to, or to knit together disparate commuter 
rail operations which combined would constitute intercity passenger 
service, but they want to keep the entities performing the core rail 
functions for such services from being covered under the Federal 
railroad labor and employment laws. Also, they seek to use Federal 
grants to fund these extensions. This issue was partially addressed in 
the FAST Act, which provided that FRA capital grants could not be used 
for commuter rail transportation. Certain parties seek to eliminate 
that provision. BRS, BMWED, and SMART-MD believe that if a state or 
agency seeks to alter the nature of a commuter rail service, so that it 
effectively becomes intercity passenger service on interstate lines, it 
is not appropriate for the service to remain outside the coverage of 
the Federal railroad labor and employment laws that are applicable to 
intercity passenger rail service. The organizations recognize that non-
rail contractors may be used for certain functions, particularly in 
accordance with a collective bargaining agreement. However, traditional 
core railroad functions should be performed by railroad workers when an 
intra-state commuter service on interstate lines is extended to become 
intercity passenger service. Also, it is certainly not appropriate for 
Federal funds to be used to facilitate evasion of the Federal railroad 
labor and employment laws.
  acquisitions of portions of the interstate rail system for commuter 
  rail service, with the acquired lines and employees working on the 
     lines removed from coverage of the federal railroad labor and 
                            employment laws
    State agencies and local governments have acquired portions of the 
general interstate system of railroad transportation for commuter rail 
service, when the acquired lines will still be used for interstate 
freight service, but neither the acquiring entity nor any contract rail 
service provider for that entity becomes a rail carrier subject to the 
Federal railroad labor and employment laws. In a series of inconsistent 
decisions the STB has held that neither its approval nor exemption from 
approval (either of which would result in rail carrier status) was 
required because the agency lacked jurisdiction (which meant that the 
agency would not have jurisdiction over a piece of the interstate 
system), then that the agency had jurisdiction, but declined to 
exercise it; and then that it was unnecessary to exercise jurisdiction 
because the vendor carrier was still deemed the owner of the line for 
the STB's purposes (which surely surprised the vendor). In such cases 
the acquiring entities typically hire rail service providers who are 
not rail carriers, which means that pieces of the interstate rail 
system that are still used for interstate freight service (and possibly 
intercity passenger service) are no longer covered by the Federal 
railroad labor and employment laws; and the railroad workers cannot or 
do not want to continue working on those lines for such service under 
those circumstances. Often, federal grants have been used to fund these 
acquisitions.
    Again, SMART-MD, BMWED, and BRS support the expansion of commuter 
rail transportation, but not when it results in removal of pieces of 
the interstate system, and with those who perform traditional core rail 
functions removed from the Federal railroad labor and employment laws. 
Also, they certainly oppose the use of Federal funds to accomplish that 
result. Fixing this problem will not necessarily mean that state and 
local government entities, will have to become rail carriers under the 
ICCTA and the Federal railroad labor and employment laws (some states 
have laws that bar them from becoming rail carriers). Before the recent 
confusing decisions, the STB's predecessor (the ICC) held that if a 
state entity acquired a physical line, but all rail responsibilities 
remained with a rail carrier, there was no need for ICC approval of a 
transaction. A return to that policy would address the problems 
identified by BMWED, BRS, and SMART-MD, without requiring state 
entities to become rail carriers under the ICCTA and the Federal 
railroad labor and employment laws. Also, as before, the rail carrier 
entities could still contract-out work to non-carrier entities 
consistent with applicable collective bargaining agreements.
    The organizations appreciate your past efforts to maintain good 
railroad industry jobs, and they look forward to engaging with you and 
members of the Subcommittee to facilitate the growth of commuter rail 
transportation with railroad workers retaining their rights, and their 
strong wages, benefits and working conditions, under the Federal 
railroad labor and employment laws.
        Respectfully,
                                   Jerry Boles,
                                           President, Brotherhood of 
                                               Railroad Signalmen.
                                   Fred N. Simpson,
                                           Brotherhood of Maintenance 
                                               of Way Employes 
                                               Division-IBT.
                                   C.A. Iannone,
                                           Director, International 
                                               Association of Sheet 
                                               Metal, Air, Rail and 
                                               Transportation Workers-
                                               Mechanical Division.

                                    
                             [all]
                        
                        
</pre></body></html>
